<html>
<title> - RUSSIAN THREATS TO UNITED STATES SECURITY IN THE POST-COLD WAR ERA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   RUSSIAN THREATS TO UNITED STATES SECURITY IN THE POST-COLD WAR ERA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2000

                               __________

                           Serial No. 106-158

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-968                     WASHINGTON : 2000


                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 24, 2000.................................     1
Statement of:
    Campbell, Hon. Tom, a Representative in Congress from the 
      State of California........................................    39
    Lunev, Stanislav, former GRU Officer, author of ``Through the 
      Eyes of the Enemy''; ; and Peter Vincent Pry, former 
      employee of the Central Intelligence Agency, author of 
      ``War Scare''..............................................    59
    Weldon, Hon. Curt, a Representative in Congress from the 
      State of Pennsylvania......................................    11
Letters, statements, et cetera, submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Campbell, Hon. Tom, a Representative in Congress from the 
      State of California, series of letters requesting 
      investigations.............................................    43
    Green, William, California State University--San Bernadino, 
      Naval Reserves Intelligence Officer, prepared statement of.   100
    Lunev, Stanislav, former GRU Officer, author of ``Through the 
      Eyes of the Enemy'', prepared statement of.................    61
    Pry, Peter Vincent, former employee of the Central 
      Intelligence Agency, author of ``War Scare'', prepared 
      statement of...............................................    74
    Weldon, Hon. Curt, a Representative in Congress from the 
      State of Pennsylvania:
        Article entitled, ``The Employment of Special Task Forces 
          Under Contemproty Conditions''.........................    32
        Partial transcript of October 26, 1999 hearing...........    16
        Partial transcript of September 14, 1999 press conference    20


 
   RUSSIAN THREATS TO UNITED STATES SECURITY IN THE POST-COLD WAR ERA

                              ----------                              


                        MONDAY, JANUARY 24, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                   Los Angeles, CA.
    The committee met, pursuant to notice, at 10:05 a.m., in 
the Los Angeles Metropolitan Transportation Authority 
Boardroom, 3rd floor, One Gateway Plaza, Los Angeles, CA, Hon. 
Dan Burton (chairman of the committee) presiding.
    Present: Representatives Burton and Scarborough.
    Staff present: Daniel R. Moll, deputy staff director; Lisa 
Smith Arafune, chief clerk; Mildred Webber and Caroline Katzin, 
professional staff members; and Michael Yeager, minority senior 
oversight counsel.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order. I ask 
unanimous consent that all Members' and witnesses' written 
opening statements be included in the record. And without 
objection so ordered. I ask unanimous consent that all 
articles, exhibits, and extraneous or tabular material referred 
to be included in the record. Without objection so ordered.
    It's been a little more than 10 years since the Berlin Wall 
came tumbling down. We've been through eras of Glasnost and 
Perestroika in Russia. We've seen economic reforms come and go 
and we've watched the Russian economy come close to collapsing.
    The conventional wisdom since the end of the cold war has 
been that the Russian threat to our national security has 
evaporated. Some people have gone so far as to say that Russia 
is now our ally. The purpose of this hearing is to examine that 
question. Is Russia still a threat to United States interests? 
Is Russia still an adversary?
    I'm very glad that we're able to hold this session here in 
Los Angeles today. We hold a lot of hearings in Washington, DC. 
Some of them get covered by the news media; some don't. A lot 
of what we do in the Capital never gets out beyond the 
Washington beltway. So when we have a recess period, I think 
it's a good thing to get out of Washington and give people and 
local media in other parts of the country some exposure to the 
congressional process and the issues that are important.
    Two weeks ago we held a field hearing in Miami about 
international drug trafficking. We've held field hearings in my 
home town of Indianapolis. One of our subcommittees held a 
field hearing in New York on health care not too long ago. So I 
think it's good for the committee and good for the people we 
represent to do this once in a while.
    One of the problems with doing field hearings is that not 
many members of the committee can attend. The 44 members of 
this committee are from all over the country, and we always 
have a lot of commitments. So you won't see many members of the 
committee here today. However, that doesn't take anything away 
from the importance of this subject at hand. National security 
and our relationship with Russia are very important issues. By 
holding this hearing, we're creating a permanent record that 
every committee member will be able to review. And I want to 
particularly thank Representative Scarborough who came all the 
way from Florida to be with us today as well as Congressman 
Curt Weldon who's from Pennsylvania. Of course Mr. Campbell is 
here from California, and we appreciate his attendance as well. 
This is an issue we're going to continue to look at down the 
road. So I want to thank all of today's witnesses for being 
here and participating.
    Now returning to the question at hand: Is Russia still a 
threat? One thing we know is that Russia is still conducting 
espionage against the United States. A lot of people in 
Washington were shocked when they picked up their newspapers 
about a month ago and discovered that a Russian spy had bugged 
the State Department. A spy who is stationed at the Russian 
Embassy had planted a tiny listening device in a chair in the 
conference room. It was right down the hall from the Secretary 
of State's office. The FBI caught him red-handed sitting in his 
car outside the State Department trying to listen in on a 
meeting. Nobody has any idea how long that bug was there or 
what the Russians might have learned. Security is so lax at the 
State Department that they couldn't tell you today if there are 
any other listening devices in the building. They're sweeping 
them right now.
    One of our witnesses today is a former Russian intelligence 
agent, Colonel Stanivlav Lunev. He is the highest ranking GRU 
officer ever to defect to the United States. The GRU is 
Russia's premiere military intelligence agency. Colonel Lunev 
is in the witness protection program and special arrangements 
have been made to conceal his identity. So I apologize to the 
media who's here, we'll have to have him come in and be covered 
up so that his identity is maintained so he won't be in any 
jeopardy.
    Mr. Lunev worked out of the Russian Embassy in Washington 
for 3\1/2\ years. I had a chance to read Colonel Lunev's 
testimony when he was before Congressman Weldon's subcommittee 
in 1998. He said, ``I can say to you very openly and very 
firmly that Russian intelligence activity against the United 
States is much more active than it was in the time of the 
former Soviet Union's existence. It's more active today than it 
was then.'' That was a year and a half before the State 
Department incident. It looks to me like Colonel Lunev knows 
what he's talking about. It makes me wonder if there are more 
bugs in more conference rooms waiting to be discovered.
    It's not really surprising that Russia is still actively 
spying on us. But how does the Russian Government view us? Have 
their views changed? Do they consider us a friend or an enemy? 
They just produced a new national security doctrine. It was 
signed by President Putin this month. According to one scholar 
it, ``adopts a tone far more aggressively anti-Western than in 
the 1997 version.'' The document blames the United States and 
NATO for trying to dominate the world and states that this is a 
grave threat to Russian security. So it's very clear that the 
Russian Government at the highest level still sees us, the 
United States, as a threat and an enemy.
    I recently read a quote from former CIA Director John 
Deutch. He was testifying in 1998. Here's what he said:

    Russia continues to be our top security concern, even 
without the adversarial relationship of the cold war. Russia 
still possesses 20,000-plus nuclear weapons. Wide-spread 
corruption and the absence of honest and accountable internal 
governmental administrative functions threatens Russia's slow 
and erratic evolution toward democracy.

    One of our witnesses today is Dr. Peter Pry. He was a CIA 
analyst for many years and he recently wrote a book, ``War 
Scare: Russia and America on the Nuclear Brink.'' Dr. Pry 
states that the Russian military and intelligence agencies 
still take a very hostile view toward the United States. He 
states that decisionmakers in those agencies still consider us 
their foremost adversary and that this paranoia is fueled by 
the growing disparity between our economy and their economy and 
between our defense capabilities and theirs.
    That brings me to one of the issues I'd really like to 
focus on today. According to Colonel Lunev, a key component of 
Russia's strategy against the West for decades has been 
sabotage and assassination. In his previous testimony, he 
stated that one of his jobs at the Russia Embassy was to 
collect information about elected leaders in this country. This 
information would be used to assassinate them in a time of war 
or crisis.
    Another of Colonel Lunev's jobs was to scout out sites 
where weapons or explosives could be prepositioned. From time 
to time he would travel to the Shenandoah Valley to photograph 
areas where ``dead drops'' would be established. Weapons would 
be placed in these dead drop areas so that in times of crisis 
Russian agents could come into the country to commit sabotage 
against power plants, military bases, and communications 
facilities.
    According to Colonel Lunev, part of the Soviet's plan 
called for the use of, ``portable tactical nuclear devices,'' 
to be used to commit sabotage against highly protected targets. 
If has now been widely reported that the Soviet Union 
manufactured portable briefcase-size nuclear devices that 
cannot all be accounted for.
    Were conventional or nuclear weapons prepositioned in the 
United States? Colonel Lunev doesn't know if the sites he 
identified were ever used. However, a second Russian defector 
says drop sites were established all over the United States and 
Western Europe. Vasili Mitrokhin was an archivist for the KGB. 
When he defected to the West he brought with him pages and 
pages of handwritten notes about KGB activities. He says that 
for decades the Soviet Union deployed sabotage and intelligence 
groups whose mission it was to commit assassinations or acts of 
sabotage in times of crisis or impending war.
    In his book, ``The Sword and the Shield,'' he states that 
drop sites for explosives were scattered all over Western 
Europe and the United States. They contained everything from 
communications equipment to handguns to explosives. At one 
point in his book, he states that a standard arms package to be 
placed in a drop site would include mines, explosive charges, 
fuses, and detonators.
    Mr. Mitrokhin brought information on the exact locations of 
several sites in Europe, in Belgium, and Switzerland. Local 
police found these sites exactly where Mitrokhin said they 
would be. That's significant because a lot of people tried to 
pooh-pooh what we're talking about here today but several sites 
have been located in Europe. They were booby-trapped with 
explosives. The bombs had to be set off with water cannons 
before the caches could be opened. Mr. Mitrokhin states that 
many drop sites were established here in the United States. 
However, he was not able to smuggle out the locations. He knows 
that one site was established in Brainerd, MN.
    In his book, he also mentions the possibility of drop sites 
in New York, Pennsylvania, and Texas. However, their locations 
are still a secret. Some people have asked why we're holding 
this hearing here in Los Angeles, CA. Well, I had a chance to 
review the hearing transcript from Congressman Weldon's 
subcommittee on this same subject. It's my understanding that 
there are many potential targets for Russian sabotage here in 
California. It's my understanding that Mr. Mitrokhin mentioned 
California's harbors and naval facilities as primary targets. 
California is the most populous State in the Nation. If there 
are hidden caches of explosives in this State, it's very 
dangerous and very important that we find out where they are. 
That's something that the people ought to be informed about. 
That's why we're here.
    The key questions before us now are where are these drop 
sites? Do they still exist? What's in them? Were any of them 
ever used to store portable nuclear devices as alleged by 
Colonel Lunev? If there are Russian arms caches hidden around 
the country with explosives and booby traps, this is a very 
dangerous situation. One of the things we want to find out 
today is if the administration has done anything to find out 
where these sites are or if they still exist.
    And I want to say something that's very important. The 
State Department of the United States was asked by all of the 
witnesses today, from the Congress, and myself on numerous 
occasions to testify, to send anybody here to testify. And 
Madeline Albright and the State Department chose to ignore us. 
Mr. Campbell, Mr. Weldon, myself, and many others on both the 
Democrat and Republican sides have written to the 
administration and to the State Department on numerous 
occasions. They will not even respond about this subject and I 
think that's deplorable.
    If there's a threat to the United States because of hidden 
sites, then by golly the State Department ought to be telling 
us what they're doing to deal with that problem and they're not 
even answering Members of Congress. And I intend to force them 
to come before the Congress if they don't start responding very 
quickly, and I'll do that by subpoenaing them.
    My colleagues, Congressman Weldon and Congressman Campbell, 
also have tried to get answers from the administration. They've 
written to the Defense Department Secretary Cohen and to 
Secretary Albright and they've also received no response. We've 
asked the FBI and the CIA to testify here today so we can try 
to find out what's being done. I wish they could testify in 
open session because I know there is more and more concern here 
in California and around the country about these possible sites 
since these books have been published. However, their testimony 
is secret. It's classified.
    After our first two panels, we'll hear from the FBI and CIA 
in closed session. Right now, the security people are sweeping 
an adjoining room so we can go in there and make sure what is 
said is kept confidential. I appreciate that our witnesses from 
these two agencies are here today, and I look forward to 
hearing their testimony. I also want to say that I really 
regret that the State Department isn't here. Once again, my 
staff and everybody else has tried to get them here; and they 
just jump through hoops to not have to testify.
    Madeleine Albright is going to be testifying before the 
International Relations Committee in about 2 weeks. And she 
will answer questions about these issues, or she'll have to 
duck them in public. Congressman Weldon has worked harder on 
this issue than anyone in Congress. Congressman Campbell has 
been working very hard to get answers from the administration 
on behalf of California and his constituents. And I 
congratulate both of you for being here and for your hard work.
    I want to thank all of our witnesses for being here today 
including Mr. DeSarno from the FBI. Mr. DeSarno testified 
before our committee back in 1998 when he was working on the 
campaign fundraising task force. He was very forthright then. 
I'm sure he'll be forthright today. He's a good man. We welcome 
him back. So we're glad to have him. And we're welcoming also 
Dr. William Green from Cal State University in San Bernadino 
who is an expert on Russia and United States policy. I look 
forward to hearing from all of you.
    I want to say one more thing. Congressman Waxman who 
represents this area couldn't be with us today. He said he had 
a previous commitment. Because this issue is important, I'm 
disappointed that he couldn't be here. I hope that he'll take a 
hard look at the issues that are going to be raised today 
because not only do they concern all of California but in 
particular since Los Angeles is such a huge population area and 
he represents a large part of that, he should be very concerned 
about it. And I'm sure once he hears all these issues, he will 
be more concerned. He does have one of his chief staff 
lieutenants here, and we appreciate his presence.
    And with that, my colleague from Florida, who flew all the 
way out here, I appreciate him being here.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.001
    
    [GRAPHIC] [TIFF OMITTED] T6968.002
    
    [GRAPHIC] [TIFF OMITTED] T6968.003
    
    [GRAPHIC] [TIFF OMITTED] T6968.004
    
    Mr. Burton. Do you have an opening statement, Mr. 
Scarborough?
    Mr. Scarborough. No. I'll just be brief, Mr. Chairman. 
Thank you for holding this hearing. I certainly thank 
Congressman Campbell for being here and the leadership he's 
shown in this very important issue, not only to all Americans 
but again to California specifically. I think of all the people 
that have come before our committees and I think of all the 
people that have come before the Armed Services Committee, of 
which I'm also a member, I think most everybody understands 
that the battles of the 21st century will not be fought on 
battlefields in Europe or in Asia but for Americans, we may 
find them being fought here at home. And certainly if that's 
the case, then California, specifically Los Angeles, CA, will 
be on the front lines in battles that involve terrorism, be it 
nuclear, chemical, or biological. That's why again I thank you 
for your leadership.
    I've got to echo the sentiments of our chairman that I 
believe unfortunately we have a President, we have a State 
Department, and we have a foreign policy apparatus in 
Washington and on both sides of the United States both 
Republicans and Democrats that do not understand the scope of 
the danger facing all Americans. And a great example is again 
Dr. Pry's book, ``War Scare.'' In it he tells a very, very 
interesting story.
    And I think it's very telling about how the administration 
right now has been lulled to sleep by the hope that somehow the 
Russians have changed. It's sort of--it's not the new Nixon; 
it's the new Russians. And that somehow they've undergone this 
remarkable transformation. And there's a story in here how in 
1996 while NATO was conducting military exercises in the North 
Sea, the Russians were so alarmed that they got their northern 
fleet out. It was a very confrontational moment in American 
history and in Russian history. At the same time, Brothers to 
the Rescue planes were shot down by Cuba.
    And so in the middle of this great international crisis, 
the White House picked up the red phone to speak to the 
Russians and to try to defuse this situation. But what were 
they talking about? They were talking about poultry exports. It 
seems that the Russians were concerned by the fact that these 
maneuvers were going on and they did a lot of different things, 
but the only thing that caught the White House's attention was 
that poultry exports from Russia to America would be cut and 
likewise going the other way because of Tyson Foods poultry 
plants in Arkansas.
    So they were focusing on chickens and using the red phone 
for this chicken crisis instead of understanding that the two 
countries were really on the brink of some very dangerous, 
dangerous times. And that continues. But, again, the State 
Department isn't focused. The White House isn't focused on it. 
They're only concerned about economic considerations while 
foreign policy considerations have been thrown out the window.
    The cold war as we knew it from 1947 to 1991 may be over, 
but we are now in a period that's even more volatile and more 
frightening. And Curt Weldon has been a champion on this issue 
for some time. I was at a meeting with him earlier this month. 
I'll tell you after about 20 minutes of talking to him, I 
became ever increasingly concerned. So I look forward to his 
testimony. I look forward to the testimony also of all these 
other witnesses.
    Again, I think what's telling is that we have interesting 
information from Dr. Pry's book and others, a lot of what 
you're going to be hearing from Curt Weldon and others isn't 
just from American scholars or American researchers, it 
actually comes from Russians themselves. As Curt Weldon says, 
from the mouths of Russians themselves. So we are in a 
frightening time.
    And, Mr. Chairman, again, I thank you for conducting this 
hearing. I think it's very important. And I hope for the safety 
of citizens in Los Angeles and California and across this 
country that our administration and that Democrats and 
Republicans in Washington, DC, will start to focus on the very 
real threat that's being posed right now by mere anarchic 
conditions in Russia.
    Thank you. Yield back my time.
    Mr. Burton. Thank you, Chairman Scarborough. We'll now hear 
an opening statement from Congressman Weldon of Pennsylvania.

  STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Weldon. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing, and I want to thank Mr. Scarborough 
for being here and Mr. Campbell for his untiring efforts to get 
this administration to come clean with the American people 
about an issue that I think is vitally important.
    Mr. Chairman, at the outset let me state that I think I'm 
in an unusual position. I am a friend of the Russian people. My 
undergraduate degree, as you know, is in Russian studies. I 
speak the language. I've been there almost 20 times. For the 
past 6 years since I formed the Duma-Congress relationship, I 
have chaired an ongoing relationship with members of all the 
Russian political factions. I know over 150 Duma members 
personally. I have many friends who serve in the Russian 
Government.
    My statements today are not to try to paint Russia into a 
corner. There are people there who want Russia to continue with 
reforms. But we need to understand the reality of what has 
happened in the former Soviet Union and what continues today. 
Because there are others in that country that don't want good 
relations with us and that have other intentions.
    I think secondarily I would mention that I think what we're 
going to look at today is what I would call an example of the 
failed policies of this administration for 8 years. We have 
been so enamored with a Bill Clinton to Boris Yeltsin 
relationship, with an Al Gore to Viktor Chernomyrdin 
relationship that whenever something would appear to surface 
that would appear to perhaps undermine Yeltsin or Chernomyrdin, 
he would pretend it didn't happen whether it was a theft of IMF 
dollars, whether it was abuse and insider trading in Russia, 
whether it was arms control treaty violations that we saw time 
and again and never called the Russians on, or whether it was 
the lasering of the eyes of one of our career Navy intelligence 
officers Jack Daly. There were consistent efforts to hide 
reality. The evidence of Vice President Gore being given a 
brief by the CIA that linked Viktor Chernomyrdin to organized 
crime within the petrol chemical industry and the Vice 
President writing the word ``bullshit'' across the front of it 
and sending it back to the CIA.
    The administration has had a consistent pattern of not 
wanting anything to surface that might cause the perception of 
a problem or a real problem in our relationship with Russia. 
And I'm convinced that's what you have in the example. And I'm 
not going to give you facts from some Republican radical right 
think tank. I'm not going to give you comments of the far right 
of my party, our party. I'm not going to give you facts from 
people who want to attack Russia. I'm going to give you a very 
logical and methodical outline of what Russians have said on 
the public record. And I want this issue to be judged on what 
Russians have said in the public realm, many before our 
Congress, because that's the story today. It is what Russians 
have said that has occurred and what we ought to be concerned 
with.
    Mr. Chairman, in May 1997--and everything I'm going to say, 
Mr. Chairman, has been witnessed in a bipartisan manner. 
Nothing that I am going to talk about was witnessed by 
Republicans alone. And my entire efforts in this area have been 
totally bipartisan. So for those who would say this is a 
Republican witch-hunt, I challenge them to come forward. I'll 
debate them, and I'll give them the factual information that 
will deny that allegation.
    May 30, 1997, I led a bipartisan delegation to Moscow. One 
of meetings we had scheduled was with then General Alexander 
Lebed, currently the Governor of Krasnoyarsk. General Lebed, as 
you know, was the top defense advisor to Yeltsin. At the 
meeting, Lebed for the first time revealed that one of his 
responsibilities when he worked for Yeltsin was to account for 
132 suitcase-size nuclear devices. He said he could not find 
them. He said he could locate only 48. Now, Democrats and 
Republicans with me said to him in this private meeting, well, 
where are the rest, General? He said, I have no idea; they 
could have been destroyed; they could be secure; or they could 
have been put on the black market for the highest bidder. 
Because the General is making a point to us that the 
instability in the Russian military was causing military 
officers to sell technology around the world.
    Now, Mr. Chairman, we did not have a press conference 
following that event. So this was not an opportunity for Lebed 
to toot his own horn. In fact, the only way the media found out 
about that allegation was that we filed my trip report 2 months 
later, and we do as a requirement of the Congress. A producer 
for 20/20 picked up on the story, Leslie Coburn. She called me; 
and she said, Congressman, did Lebed really say this? I said 
absolutely. She said do you think he would say it on national 
TV? I said you will have to ask him. She went to Moscow. 20/20 
interviewed Lebed; they interviewed me and both of us with a 
lead story in September 1997 on the national media where he 
again said in his own words, that Russia had, in fact, produced 
these small atomic demolition munitions and could not account 
for all of them.
    What was the response of the Russian Government? They 
denied they ever produced them. The minister of foreign affairs 
for Russia publicly said Lebed is crazy; he doesn't know what 
he's talking about; he's trying to gain popularity. But even 
worse than that, Mr. Chairman, was that at a press conference 
in the Pentagon reflecting what I just talked about with this 
administration the question was asked of Ken Bacon's staff what 
do you make of the allegations by Lebed. And this was the 
response of our government: We have no reason to doubt what the 
Russian Government is saying.
    So then, Mr. Chairman, on October 2, 1997, I brought over 
Dr. Alexei Yablikov. Dr. Yablikov is one of the most reknown 
environmentalists in all of Russia. He was initially part of 
Yeltsin's cabinet; was a member of the security council; and is 
an expert on environmental issues, ecological issues, and 
atomic energy issues. He heads a think tank. He's a member of 
the Academy of Sciences in Moscow today.
    I had Alexei Yablikov testify before my committee open 
session in Washington. And this is what he said. He said, I 
know that General Lebed was correct. These devices were built. 
He said on the record--and you can check the transcript--he 
said I know colleagues of mine who worked on these devices. And 
you need to understand, America, he didn't just build these for 
the Ministry of Defense, they also built these for the KGB to 
be used for external operations.
    So now I have a retired two star general given the highest 
award that Russia gives, the Hero of Russia award, supported by 
Dr. Alexei Yablikov saying publicly that Russia has, in fact, 
built these devices and that we better work with Russia to find 
out where they are and if, in fact, they're capable of being 
sold abroad.
    Mr. Chairman, even though our government denied that they 
should pursue this issue, I traveled to Moscow that December 
and, as I frequently do, met with the defense ministers of 
Russia, Defense Minister Sergeyev, also a retired general. For 
the first half hour of my meeting, I talked about positive 
proactive things that I was doing to help Russia, to help the 
people, to help the military with housing, to help the problem 
of nuclear waste. And then I said, but General, for you to 
continue to have me help you and be Russia's friend you have to 
be candid with me. What's the story of the small atomic 
demolition munitions. This is what the defense minister from 
Russia said to me: ``Congressman, we did build those devices 
just as you built them during the cold war. We are aware that 
you destroyed all of yours. And I submit to you that we will 
have all of our small atomic demolition munitions destroyed by 
the year 2000.''
    So here we have a Russian general saying that they were 
lost or not being able to be accounted for, we have a leading 
environmental activist from Russia verifying his story, and we 
have our government publicly going along with the Russian 
Government's total denial they had ever built them.
    And finally the defense ministry of Russia admitted to me 
publicly, yes we built them and yes, we'll have them all 
destroyed by this year.
    The following year, Mr. Chairman, March 19, 1998, I invited 
General Alexander Lebed to Washington. He testified before my 
committee. Again he was under terrible pressure from the 
Russian Government. Again he said--he stood by his claims that 
these devices were unaccounted for and that we in America 
should be troubled because those who want to harm us are the 
ones that those generals and admirals who are disgruntled would 
sell those devices to.
    In August of that same year, Mr. Chairman, August the 4th, 
I invited Stanislav Lunev to come before my committee. As you 
know, he's in the witness protection program jointly 
administered by, I believe, the FBI and the CIA. And he's under 
an assumed name. I had him come in behind a curtain with a ski 
mask on. I had him testify. And I will not go through what he's 
going to say today but he's going to tell you as the highest 
ranking GRU defector in the history of the Soviet Union or 
Russia, his job when he worked under cover as a TASS 
correspondent at the Soviet Embassy in Washington was to locate 
sites where materials could be dropped. And, in fact, that's an 
issue I know this committee is going to explore with him.
    So now we have the highest ranking GRU defector reinforcing 
the possibility of what both Lebed and Yablikov said and, in 
fact, saying it was his understanding that these drops could 
include small atomic demolition munitions as well as the 
possibility of other September or August of this past year, 
August 1999, Dr. Christopher Andrew published his book that you 
referred to called, ``The KGB, the Sword and the Shield, the 
Mitrokhin Files.'' This book, as you pointed out, is based on 
the 8 years of collecting Mitrokhin's handwritten notes about 
secret KGB files.
    I met with Dr. Christopher Andrew from Cambridge University 
at a private dinner in September of last year. I asked him to 
testify before my committee which he did in October. Dr. Andrew 
flew over from London and he brought with him Oleg Gordievsky. 
Gordievsky is the highest ranking ever KGB defector from 
Russia. He was the station desk chief for the Soviet KGB in 
London. He currently is in a witness protection program in 
Great Britain. The two of them testified before my committee, 
Mr. Chairman. And what did they say? They said in the Mitrokhin 
files one of the things Mitrokhin documented was a deliberate 
plan by the KGB to preposition military caches of weapons, 
hardware, and devices in Europe and in North America. These 
devices were intended to be used by agents who would be 
prepositioned in our country to blow up dams, bridges, ports, 
to cause significant unrest inside of our territory.
    When I asked Dr. Andrew whether or not there were specific 
sites named in the United States, he said Mitrokhin only had 
time to take notes on a sampling of the kinds of cases the KGB 
was working on. And he said he wasn't interested in documenting 
every single location of every single device that the KGB had 
put forward. Because there are literally hundreds of them all 
over the world. He did document four sites so that no one could 
question the authenticity of what he was saying, it just 
happens that one of those sites was in Switzerland and three 
were in Belgium.
    Last year, Mr. Chairman, the Swiss went to the exact site 
that he identified, there are photographs of that site in this 
book and right there at the exact spot with a booby-trapped 
bomb that could kill a human being and, in fact, caused the 
Swiss Government to issue a warning to all of its citizens 
about that type of location, they found exactly what Mitrokhin 
said would be there. Devices that the Russians had 
prepositioned during the Soviet era.
    In Belgium, at all three sites the Belgium intelligence 
service found the exact same kinds of capability. Now, were 
there weapons of mass destruction there? No. Were there 
military hardware and transmission and communications 
equipment? Yes. Were they booby trapped? The one in 
Switzerland, yes.
    In the Mitrokhin files, he documents that there are States 
in the United States where these devices were prepositioned. 
Specifically mentioned in the files are California, 
Pennsylvania, New York, Montana, Minnesota, Texas. And he 
further states that they are near pipelines. They are near 
ports. They are near major public infrastructure locations. All 
of this is in the KGB files. Now, this is not the main content 
of this book. Because the KGB files were expansive. Only a very 
small portion of this book dealt with the location of these 
devices. So for those who say come forward and give us one, we 
can't. But when I had Dr. Andrew who's, by the way, a Russian 
security and intelligence expert at Cambridge, one of the 
leading tenured professors at Cambridge University so much so 
that when Mitrokhin received his ability to live in England by 
the British intelligence service and the British Government, 
they went to Cambridge and they went to Dr. Andrew and they 
said would you work with Mitrokhin and help to prepare these 
files in an organized way. That's why the book came out.
    So the British intelligence trusted Christopher Andrew to 
work Mitrokhin. When Mitrokhin--or when Christopher Andrew and 
Gordievsky testified before my committee, again this is in the 
public record, they said that there is no doubt in their mind 
that there are locations today, no doubt in their minds, all 
over the United States, where Soviet military equipment is 
stored today. No doubt. Now, they didn't say that there is a 
high degree of probability of a nuclear device, but they left 
the door open. They left the door open. In fact, I'll submit 
the transcript which refers to that for the record which people 
can look at in the words again of a Russian, Mitrokhin--I mean 
Gordievsky and Mitrokhin and Dr. Christopher Andrew.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.005
    
    [GRAPHIC] [TIFF OMITTED] T6968.006
    
    [GRAPHIC] [TIFF OMITTED] T6968.007
    
    Mr. Weldon. Mr. Chairman before that hearing, I went to our 
own agencies. I called Louis Freeh of the FBI who I have the 
highest respect for. I think he has absolutely impeccable 
credentials. As you know and I think as you feel, he is the one 
bright star in this administration who shines above all others. 
I said, Director Freeh, can you send a team over that I can 
talk to before I have the hearing; and he did. He sent over 
three people. One of whom was told--and I told him I was going 
to say what was discussed at that meeting so they knew that it 
was not being held in a classified way.
    I said I want to ask you the question, one, do you consider 
the Mitrokhin files to be credible. And they said, absolutely. 
They are totally credible.
    So anyone that would say this is some outlandish claim 
that's not been verified, I would ask them to talk to the FBI 
about that and the SIS service in Great Britain.
    No. 2, I said, have you attempted to find devices where the 
States and sites are listed even though it's vague and they 
said, yes, but we don't have much to go on. You know, there are 
thousands of miles of pipeline in Texas. There are tons of 
ports installations in California. We just don't know where to 
look without the specific locations.
    So then I got to the third question: Has our government 
asked the Russian Government for the specific locations? And 
the answer was no, our government has not asked the Russian 
Government.
    Now, Mr. Chairman, also for the record I would like to 
submit a transcript of a press conference held at the Pentagon 
on September 15, 1999. In this transcript I'm going to quote 
Admiral Quigley--Rear Admiral Quigley is being asked questions 
by the media about the Mitrokhin files, about the claims in it. 
Admiral Quigley is asked if he's aware of the book and the 
allegations. He says, yes, we're aware of it. They said, do you 
have any interest in actually going after some of these caches? 
He says not that I'm aware of, no. Have you approached the 
Russians on this, about whether or not they've done this? His 
answer, no, no we have not.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.008
    
    [GRAPHIC] [TIFF OMITTED] T6968.009
    
    [GRAPHIC] [TIFF OMITTED] T6968.010
    
    [GRAPHIC] [TIFF OMITTED] T6968.011
    
    [GRAPHIC] [TIFF OMITTED] T6968.012
    
    [GRAPHIC] [TIFF OMITTED] T6968.013
    
    [GRAPHIC] [TIFF OMITTED] T6968.014
    
    [GRAPHIC] [TIFF OMITTED] T6968.015
    
    [GRAPHIC] [TIFF OMITTED] T6968.016
    
    [GRAPHIC] [TIFF OMITTED] T6968.017
    
    Mr. Weldon. So in the public domain now we have two Federal 
agencies, the Defense Department and the FBI stating that this 
administration--and I don't think it should be the 
responsibility of the FBI or the Defense Department to ask the 
Russians, but both of them saying publicly, this administration 
hasn't asked the question.
    Mr. Chairman, on January--or on October 22, and you have 
this in your files, I drafted a letter which was signed by 
myself and Jim Oberstar. Jim Oberstar is not exactly considered 
a wacko Member of the Congress. He is one of the most stable 
Democrats in the House. He's the ranking Democrat on the public 
works committee. Jim Oberstar and I signed this letter to 
Madeleine Albright saying have you asked the question of the 
Russians; and if you did, what was the response; and if you 
haven't asked the question, why haven't you. Today is January, 
what, the 22nd. No response from the administration, Mr. 
Chairman. Nothing.
    Mr. Chairman, also in October of last year, I introduced 
legislation. And I just didn't go get Republican sponsors, Mr. 
Chairman, my bill which is H. Res. 380 which I have before you 
has 16 Republican sponsors and 16 Democrat sponsors. This is a 
bipartisan effort. And if any Member of Congress attempts to 
say this is partisan, or if the media tries to spin this as 
partisan I will refute it every step of the way. Sixteen 
Democrats and 16 Republicans cosponsored this bill, demanding 
that this administration come clean with the American people.
    Mr. Chairman, up until this date we have no new 
information. Nothing. We have the State Department silent with 
their lips closed. My own hunch is when the FBI was told by the 
SIS back in 1992 and 1993 about the Mitrokhin files, Yeltsin 
was on the rise. All of us wanted Yeltsin to succeed. But this 
administration because of its special focus on Yeltsin and 
Clinton didn't want anything to surface that would perhaps call 
into question Yeltsin's leadership or what Soviet and Russia's 
intents were. So we didn't ask the question. And now 8 years 
later, they are between a rock and a hard place. In my opinion, 
my best guess is they didn't ask the question then, they 
haven't asked the question, and they're embarrassed to come 
forward and admit that today.
    Now one final thought, Mr. Chairman. For those who would 
say that this is Russia of the past, I think by and large this 
kind of activity was in the former Soviet Union. But as someone 
who studies Russia on a daily basis, who travels to Russia 
frequently, and who knows the intricacies of the people in that 
country, I want to read to you, Mr. Chairman, from an internal 
Russian military publication dated July, August 1995.
    Now Mr. Chairman, this is 3 years after the reforms of 
Yeltsin. This is after we became enamored with Russia's success 
which I'm very happy and support on a regular basis. In an 
article in a publication that is briefed to the highest leaders 
in the Russian military today--in fact the names of the people 
on the editorial board are people like Kokoshin, they're people 
like Kvashnin, the highest leaders in the Russian military. The 
article written by Colonel Kadetov is entitled, ``The 
Employment of Special Task Forces Under Contemporary 
Conditions.'' In that article, Mr. Chairman, it says, that 
Russia should look--and this is 1995, mind you, Russia should 
look to have reconnaissance, commando, and other special 
services equipped with compact nuclear ammunition, weapons, 
mines, explosives, and other special means and equipment which 
have substantially increased the capabilities of reconnaissance 
and other special groups and detachments.
    Further down in this article, Mr. Chairman, the bottom of 
the page, 199, please bear with me on this statement.

    Special task forces can be used not only in war, but also 
in peace time during a period of threat. This refers to those 
instances when armed confrontation between the sides has not 
taken on the scale of war or when the extent of military 
preparations by a potential enemy and a corresponding military 
danger have reached such limits beyond which aggression can be 
curbed only by taking preventative measures.

    Mr. Chairman, this article goes into detail of Russia's 
current political thought of prepositioning military equipment 
including the possibility of nuclear devices on our soil. So 
for anyone who wants to trivialize this, I say come on. Let's 
have at it. I'm willing to use the words from Russians and from 
Russian materials to document what's taking place.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.018
    
    [GRAPHIC] [TIFF OMITTED] T6968.019
    
    [GRAPHIC] [TIFF OMITTED] T6968.020
    
    [GRAPHIC] [TIFF OMITTED] T6968.021
    
    [GRAPHIC] [TIFF OMITTED] T6968.022
    
    [GRAPHIC] [TIFF OMITTED] T6968.023
    
    Mr. Weldon. I have two final things. I brought with me 
devices for those who say can't happen. This is an 
accelerometer, and this is a gyroscope. These have Russian 
markings on them. They were clipped off of Russian SSN 19 long-
range missiles that were on Russian submarines that could hit 
the continental United States because of their range. These 
devices are prohibited from being exported. We caught the 
Russians transferring these to Iraq not once, not twice, but 
three times. We have more than one set. In fact, the number is 
classified but it's well over 100 sets of these devices. These 
were being transferred by Russia in direct violation of an arms 
control regime called the missile technology control regime.
    When I was in Moscow the month after the Post reported the 
story, I asked our Ambassador at the time, Tom Pickering, what 
was the Russian response when you asked them about this 
transfer, he said, I haven't asked them yet. I said why haven't 
you asked them? That would be a violation of the MTCR. He said 
that's got to come from Washington, from the State Department, 
from the White House.
    I wrote to President Clinton, Mr. Chairman. He wrote me 
back in March. Dear Congressman Weldon, what you're saying is 
of great concern to us. We read the Post story. And if it's 
true, you're right, it's a violation of the MTCR and we will 
take aggressive steps. But he went on to say we don't have any 
evidence.
    Mr. Chairman, I give you the evidence. I know that agencies 
of this government have had the evidence since before the 
President wrote that letter. That's the problem that we're 
currently confronting. We don't have any credibility with the 
Russians, Mr. Chairman. They don't respect us because of the 
dishrag policy of this administration which wants to pretend 
that things aren't what they are. And that doesn't mean we have 
to back Russia into a corner. It means we have to deal with 
them from a position of strength, consistency and candor.
    One final item if I might approach the Chair. I have a 
small atomic demolition device I would like to bring up for 
you.
    Mr. Burton. This is a mock-up, folks. Now, I hope that 
Congressman Weldon will explain who made this mock-up.
    Mr. Weldon. Yes, I will. This device was made by a former 
CIA agent and it was made to the specifications that are in the 
public record and available that the Soviet Union would use to 
design a small atomic demolition munitions I have just 
documented General Sergeyev has admitted that they built. So 
these specs are not what our Department of Defense tried to 
trivialize, these are built to the specs of the former Soviet 
Union.
    This is a device that would be typical of a 1 to 10 kiloton 
device. To give you a comparison, Hiroshima was about 15 to 16 
kilotons. This would wipe out downtown L.A., would wipe out the 
hotel where I'm staying, where we're all staying, and all the 
buildings around. If you put this kind of a device in a 
stadium, it would kill 50,000 to 75,000 people. This device can 
be carried by one person. This is the device. We're talking 
about a uranium-fired and uranium-fueled device that would 
basically be encased inside of the metal pipe that would have 
the appropriate activation devices along with it. And the 
design is actually contained in the top of the briefcase.
    Now, do we think that these devices are in fact buried in 
the United States? We have no way of doing that. But this is 
exactly what the Soviets had in mind. And according to the 
specs available in the public domain which we can provide for 
the record, Dr. Pry can assist in that effort, this is what the 
Soviet Union can't locate.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you for that outstanding presentation.
    Now if anybody's hair is not gray, we'll turn to our 
colleague from California, Mr. Campbell, for an opening 
statement.

 STATEMENT OF HON. TOM CAMPBELL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Campbell. Mr. Chairman, I thank you for bringing these 
hearings to California. You are to be complimented for 
realizing the importance of the issue and bringing it out to 
the people. So it's not just within the Washington context. My 
colleague from Pennsylvania, Curt Weldon, has a remarkable 
record of public service and nothing more important than what 
he's done in this field. It was because of his work that I 
became aware of the potential difficulties with the 
prepositioning of communications or weapons systems, whichever, 
because the communications systems could be booby trapped. And 
I, in my effort, have tried to bring the question home to 
California: Is there a risk? That was my question, which I hope 
we can get some beginnings of answers to, if not from the 
administration then possibly from witnesses.
    The testimony that has been given in Curt Weldon's 
subcommittee on October 26 of last year builds the case. And 
here's the two large routes toward the conclusion that there 
are--is a high likelihood of prepositioning of communications 
or weapons in the State of California for two reasons. One 
because the sources are likely to be coming across the border 
at least in part by land, which is going to implicate our 
States that are on the land border; and second, that there are 
targets that were identified by these witnesses as likely 
targets which were located in California. And those are the two 
different streams that flow into this river of doubt as to 
whether there is a risk to the people of California.
    Obviously, and I say this to a chairman from Indiana, all 
of us are concerned. No matter where it is, that's a given. But 
I wanted at least in this opening statement to focus a bit as 
to why it was so important for you to hold these hearings here 
and hopefully to get some attention to this very realistic and 
serious risk.
    The possibility, by the way, could be simply a booby-
trapped communications device. Indeed in my testimony I'm just 
going to stick with that example. Suppose that's all we were 
talking about. Mr. Chairman, you know we spend money because 
you and I serve on the International Relations Committee 
together, we spend money in Yugoslavia, we spend money in 
Africa, Zimbabwe where I recently visited, on demining. I'm 
glad that we do because some child might come across a mine in 
an area where it had been planted years before. This seems to 
me the minimum that we should do for our own people, to find 
out if there is a booby-trapped device.
    All right. I mentioned the two streams flowing into the 
river. On the first Professor Hill's testimony--excuse me, 
Andrews' testimony on October 26, one method, perhaps the main 
method of bringing arms and radio equipment into Western 
countries was via Soviet diplomatic bags. In the case of the 
United States, however, there are indications in KGB files that 
some of the equipment was smuggled across the Mexican and 
Canadian borders. First reason to worry about California 
because of our long border with Mexico.
    Second, also from Professor Andrews' testimony, among the 
chief sabotage targets across the United States-Mexican border 
were military bases, missile sites, radar installations, and 
the oil pipeline code named Stark which ran from El Paso in 
Texas to Costa Mesa in California. Three sites in the 
California coast were selected for DRG landings, that's an 
acronym for the Russian word for these teams, that were 
instructed to preposition material of this nature. Together 
with large capacity caches in which to store mines, explosives, 
detonators, and other sabotage material. Second stream flowing 
into this river of doubt.
    Third, from Mitrokhin's testimony himself and his quotation 
in the 60 Minutes presentation, so this is Mitrokhin himself 
speaking, the KGB plan went from the Mexican border in the 
south to the 49th parallel, the Canadian border, in the north. 
Andrew says, quoting Mitrokhin, Mitrokhin's most stunning 
revelation is that these targets across the United States in a 
KGB plan to knock out United States power supplies in case of a 
war. That's from testimony that Andrew gave quoting Mitrokhin, 
so it was not Mitrokhin himself, and I can correct myself, 
October 26, 1999.
    In Nightline's research, as you know they did a special 
session on this, they pursued the Brainerd, MN possibility and 
concluded that other caches do exist. This is testimony on that 
program from some source they had. And I do not know whom. But 
a source they had that was able to get into the Mitrokhin files 
beyond what was disclosed into the Mitrokhin files in this 
book. And that source, which was revealed on Nightline 
identified Brainerd, MN.
    My point about the danger to civilians is most clearly 
demonstrated by this description of what happened in 
Switzerland. From the book on the Mitrokhin files, late in 
1998, the Swiss authorities began removing a radio cache in 
woods near Bern identified by Mitrokhin. So I'll pause just for 
a moment in the quote to say it's a radio cache. In and of 
itself one might not think all that dangerous. One might think 
well not a weapon. However, this radio cache which exploded 
when fired on by a water cannon, a spokesman for the Federal 
prosecutors office issued a warning that if any further caches 
were discovered they should not be touched, ``anyone who tried 
to move the container would have been killed.''
    And the reference as well earlier is from page 365 of the 
``Sword and the Shield'' and a reference from page 16, the 
Mitrokhin notes reveal similar KGB arms and radio caches, some 
of them booby trapped, scattered around much of Europe and 
North America.
    Mr. Chairman, Mr. Scarborough, that is the danger that I 
care about, that all of us care about. And I particularly bring 
it home to the situation here in California. It is likely 
because of its source from across the border, and it is likely 
because of the targets, for example that El Paso Costa Mesa 
pipeline, the military installations that were referred to in 
the Mitrokhin files.
    Last, what have I done about it? I deserve nothing, no 
notice at all except to the extent that I am taking what your 
work and what Mr. Weldon's work has done and asking a question 
you would for your own district in Indiana, you would for your 
district in Florida: Is there a risk here? What can we do? 
Let's find out. Accordingly, I wrote the Secretary of State 
after I had convinced myself on the basis of the evidence from 
the Weldon hearings, from the testimony that I've just read 
that it was appropriate--that it was appropriate to inquire 
because the risk to the people in my district or the people in 
California was not trivial.
    I wrote on December 6, Mr. Chairman, and I asked most 
politely to Secretary Albright that she pursue this vigorously. 
I received--I also sent a letter to Sandy Berger and I sent a 
letter to Secretary of Defense Cohen. I received a reply--this 
is December 6. I received a reply only from Secretary Cohen.
    Secretary Cohen said, Thank you for your letter requesting 
information about the location of Russian weapon caches within 
the United States. I have asked the Undersecretary of Defense 
for Policy, Mr. Walt Slocum, to promptly address this request; 
and he will get back to you as soon as possible. With best 
wishes, I am Secretary Bill Cohen.
    Knowing of this hearing, Mr. Chairman, I want to emphasize 
this because fairness is a very important characteristic in 
anything as important as this. One must be careful in saying 
this is a concern to all Democrats, Republicans alike.
    I wrote again knowing of this hearing, and so I said to 
Sandy Berger, Madeleine Albright, and Bill Cohen, in a letter 
of January 13: On January 24, 2000, the House Committee on 
Government Reform will be holding a field hearing in Los 
Angeles on exactly this issue. I would be grateful if you would 
respond to my letter prior to this hearing so that I may submit 
the administration's possession in this matter to the committee 
for the record.
    Mr. Chairman, I received no response at all.
    And I'm going to conclude now with a description of an 
interchange for which you were present when we were both in the 
International Relations Committee and Madeleine Albright, 
Secretary Albright testified in this particular context it was 
about the war in Yugoslavia. I think you'll remember, Mr. 
Chairman, that I was very vigorous in trying to assert the role 
of Congress in that matter that it was a war and that it should 
not have been prosecuted without the approval of Congress as 
per our Constitution. I asked Secretary Albright, Mrs. 
Albright, are we at war with Yugoslavia? She said no. I said, 
we're not at war? She said no. I said, what is it then? She 
said it was armed conflict.
    The next day she had her Assistant Secretary come up and I 
asked her are we at war she said no we are in armed conflict. I 
said, what's the difference between armed conflict or not just 
armed conflict and war but armed conflict and hostilities 
because hostilities is in the War Power Act. And she said, wait 
a minute, I'll get the attorney for the State Department. She 
then turned around and brought up the attorney for the State 
Department who testified in essence that it was armed conflict 
if the President said it was armed conflict; it was hostilities 
if the President said it was hostilities.
    This is circumlocution. This is a disservice to the high 
Office of Secretary of State. And to fail to reply at all to 
sincere inquiries relative to the safety of my and your 
constituents is a disservice to the American public.
    I thank you for holding these hearings, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.024
    
    [GRAPHIC] [TIFF OMITTED] T6968.028
    
    [GRAPHIC] [TIFF OMITTED] T6968.026
    
    [GRAPHIC] [TIFF OMITTED] T6968.031
    
    [GRAPHIC] [TIFF OMITTED] T6968.029
    
    [GRAPHIC] [TIFF OMITTED] T6968.025
    
    [GRAPHIC] [TIFF OMITTED] T6968.030
    
    [GRAPHIC] [TIFF OMITTED] T6968.027
    
    Mr. Burton. Thank you, Mr. Campbell, Mr. Weldon. With the 
consent of my colleague, Mr. Scarborough, we'll go with 10 
minute rounds of questions. I'll give you 10 minutes. Let me--
can you set this for 10 minutes so that we--and we may go more 
than one round depending on whether we cover everything.
    I read the large part of the book, and one of the things 
that struck me in addition to the nuclear devices being in 
briefcases weighing about 60 pounds was that it was said that 
they also made those devices in different forms. They could 
make them in forms that looked like bricks or rocks or 
something else. Did anybody ever express that to you that it 
might just be a briefcase-type weapon?
    Mr. Weldon. Yes, Mr. Chairman, that was expressed. And I 
think if you ask that question of Mr. Lunev, you'll get his 
personal response as to what he thought it could perhaps look 
like. I think he'll elaborate on that. But there in fact were 
``Spetsnaz'' training manuals that identify these kinds of 
devices in a number of forms, not just the kind of formal 
briefcase that I brought today, but that they could be placed 
and be hidden and not known to be in fact what they were. So 
your answer is yes, that there were other types of devices, 
some larger, some smaller. And you know, the other added 
dimension here is we talk about reducing arms repeatedly 
between us and Russia. Russia has an overwhelming advantage to 
us on tactical nuclear weapons. Tactical nukes. And they admit 
that. And we admit that publicly. I mean, they have a huge 
advantage over America on the number of tactical nukes none of 
which are regulated by treaty by the way. Tactical nukes are 
not very far away from what we're talking about with small 
atomic demolition munitions, which you're saying and has been 
said by Russian experts could, in fact, have been camouflaged.
    Mr. Burton. I would like to followup on one thing that you 
said in your opening statement you said that was it Yablikov?
    Mr. Weldon. Alexei Yablikov.
    Mr. Burton. Forgive me if I don't pronounce these names 
correctly. He said, as I recall, that many of these devices 
were for external use.
    Mr. Weldon. He said that his colleagues and his peers who 
were academic scientists and researchers told him they were 
working on these devices in the Soviet era, that they were 
being built not just for the Ministry of Defense but also for 
the KGB. And the design of these devices was to be used 
wherever Russia needed them both internally and externally.
    Mr. Burton. So when they built these 132 nuclear devices, 
the briefcase-like device that you showed me, they intended for 
them to be used for internal civil disorders, I presume, as 
well as external threats to the Soviet Union?
    Mr. Weldon. Absolutely. In fact, there was an allegation 
made by Dudayev in the first Chechen conflict that he had, in 
fact, a small atomic demolition device, and if you read the 
book One Point Safe by Andrew and Leslie Cockburn, which I have 
asked the CIA to refute and they have not done that publicly, 
there is a chapter dedicated to the United States taking that 
charge so seriously that we sent agents to work with the 
Russians to find out whether or not Dudayev did in fact have a 
small atomic demolition device. That's how seriously we took 
that allegation.
    Mr. Burton. Now, they said that they were going to destroy 
all of these 132 nuclear devices by the year 2000, but only 48 
can be accounted for. That means, according to my mathematics, 
about 84 are still unaccounted for.
    Mr. Weldon. Well, again, Lebed was the top security adviser 
to Yeltsin. So he had the full weight of the Presidency to go 
out and find these devices. And he said--I mean, he gave us the 
exact number, and he said they can only locate 48 and had no 
idea where the rest were. It was the defense minister who told 
me in the subsequent meeting in December after his government 
had denied they ever built them that, yes, they would have them 
all destroyed.
    Mr. Chairman, I want to add one comment for the record 
about Lebed's credibility. For those who might say, well, you 
can't really trust what Lebed's saying; for those who study 
Russia they know that when Yeltsin appointed Putin, he 
interviewed three people for that position. Just 2 months ago, 
one of the three people he interviewed was Aleksandr Lebed. So 
for those who are going to try to take apart Lebed's 
credibility, the Russian President just before he appointed 
Putin as his successor interviewed Lebed, and I think that was 
because the Chechen war went sour and Putin's credibility went 
down, Lebed would be a credible alternative who had a strong 
figure image in Russia.
    Mr. Burton. We don't know how many sites there are or could 
be in North America or Canada, but as the chief potential 
adversary of the Soviet Union time conflict, it is logical to 
assume that there would be numerous sites in the United States 
and that there's a real possibility that if they were going to 
export these nuclear devices for external use that they would 
be placed here in the United States someplace.
    Mr. Weldon. I would say scores and scores, if not hundreds 
and hundreds, all over this country. They named a number of 
States in the files that Mitrokhin was able to get documented. 
Unfortunately, he didn't take the time to get the specific 
locations.
    You know--and I asked that question of Dr. Andrew, why 
didn't Mitrokhin get the specific locations. He said, 
Congressman, you have to understand. Mitrokhin's hatred of the 
KGB was primarily because of what the KGB was doing to Russian 
people, and that's where he went to extensive documentation and 
the vast web of sympathizers that the Communist party had 
outside of Russia, and that's what the bulk of this is about. 
The location of these devices wasn't one of Mitrokhin's top 
priorities. That wasn't what was of interest to him, but he did 
copy down some of those files, but only in four of them went 
down to the specific detail. Unfortunately, all of those four 
sites were in Europe.
    Mr. Burton. It also mentioned--in the book it was mentioned 
that the Spetsnaz troops which are the premier, I guess it 
would be equivalent to our Delta force troops or I don't know 
what would be another analogy, but our top elite troops who are 
capable of using all kinds of methods to kill people--that they 
were getting dossiers on American leaders and politicians so 
that in time of conflict they could eradicate them more or kill 
them.
    Mr. Weldon. Again, Lunev will testify to that. He testified 
before my committee on that issue. In addition, Gordievsky, the 
highest ranking KGB officer whoever defected, who was the 
bureau chief in London, said the same thing. I think it's 
important you keep reiterating, as you've been doing, as we've 
been following through, these statements are from the mouths of 
Russians. These are not----
    Mr. Burton. They're not just low level. High level.
    Mr. Weldon. These are the highest level officials in the 
Russian intelligence service and the Russian military, some of 
whom are still in Russia today, Mr. Chairman. Lebed is the 
Governor of Krasnoyarsk, who was just interviewed for the top 
job in the Russian Government.
    Mr. Burton. Let me ask you one final question, and that 
is--and I think this is extremely important for anybody who's 
paying attention to this issue, as everybody ought to be. We 
ought to have all 235 or 240 million Americans paying attention 
to this issue, and that is, that you talked to the FBI and 
other agencies of the government, you talked to Louis Freeh; 
and they told you that nobody has asked the former Soviet Union 
and the now Russian leadership any questions about these 
possible sites in the United States. Nobody to your knowledge 
has asked any questions about if these sites exist and where 
they exist.
    Mr. Weldon. Two Federal agencies--it wasn't Louis Freeh 
himself. The FBI said to me personally and the Defense 
Department said publicly in a press conference that we have not 
yet asked the Russians the questions. I don't blame either of 
those agencies. I don't think it's their responsibility to ask 
the Russians. I think it's the State Department's 
responsibility or President Clinton in his relationship with 
Boris Yeltsin, and why they haven't done that--I've given you 
my own best estimate as to why--but I think this country should 
demand and hopefully through your committee will demand this 
administration come clean with the American people. If they're 
so worried about land mines, as my colleague Mr. Campbell so 
eloquently stated, you hear people talking about land mines. 
We've got, according to what's happened in Switzerland, land 
mines over America.
    Mr. Burton. And possibly 84 nuclear weapons.
    Mr. Weldon. And possibly.
    Mr. Burton. Let me ask Mr. Campbell a few questions.
    What sites in California--I don't know if you've done any 
research on this--but what sites in California other than those 
that you enumerated do you think would be of great concern if 
there were devices of this type planted here in California?
    Mr. Campbell. My source is going to be as described in the 
testimony of the--from the Mitrokhin files, and that indicated 
strategic targets for civil disturbance to create havoc in the 
event of a war, in the event of a war, and the particular 
subjects were military bases, gas and petroleum pipeline as 
likely, and then naturally those closer to the border because 
the possibility of bringing them across and then repositioning 
once they're across was suggested. So those would be the most 
likely. But I repeat that the key here is somebody knows. This 
is remarkable. Somebody does know; and therefore, why don't we 
use our diplomatic efforts to find out?
    Mr. Burton. One of the things that concerns me every time I 
come to California--I love this State. It's a beautiful State. 
You have great recreational facilities. When I land at LAX, I'm 
always afraid there's going to be a terrible earthquake and the 
San Andreas Fault is going to split, and we're all going to go 
into the ocean. Kidding of course, but the fact of the matter 
is, if a major nuclear device of the 10 kiloton range was set 
off in close proximity to one of the major fault areas, I 
wonder how that would affect not only that particular area but 
also the entire possibility of an earthquake that would go 
further.
    Mr. Campbell. I don't have the expertise to answer that 
question. I'm nowhere near a seismologist, but every 
Californian is an amateur seismologist, Mr. Chairman; but I 
don't have the expertise to answer it. I'll take your question 
and look at it through the microscope as opposed to the 
telescope end, and I would say that the fact that we do have 
shifting geology means that it's a distinct possibility that 
some of these locations might never be identified. That was in 
the Mitrokhin--that was in the Hill book--excuse me, the Andrew 
book regarding one of the European sites in Belgium, that they 
were not able to find it because there had been road work and 
reconstruction and change in the topography, so all the more 
so.
    So I won't answer your first question because I just lack 
the expertise, but I would say being able to identify where a 
place was is not--10, 15 years ago may not get you all that you 
need to be when the ground shifts.
    Mr. Burton. Mr. Scarborough.
    Mr. Campbell. Mr. Chairman, might I offer one last thought?
    Mr. Burton. Sure.
    Mr. Campbell. Then I'd love to hear from my colleague from 
Florida. We have in the Congress a mechanism for solving and 
dealing with these problems. We do. If there are high-level, 
highly confidential communications between our Government and 
another, it can be shared with the Intelligence Committee, and 
you know how this works. I think it's important to emphasize 
that, that no one here is saying to our administration do 
anything which would jeopardize secure communications, but to 
give no answer at all, just to present almost an arrogant 
refusal to answer the question that a Congressman might ask on 
behalf of his constituents is unacceptable; and if instead the 
letter I'd gotten back was to say this is a matter we need to 
take up with the Intelligence Committee where it will stay in 
camera, where there is representation of both parties, I would 
have been absolutely satisfied.
    Mr. Weldon. And so would I, Mr. Chairman.
    Mr. Burton. Mr. Scarborough.
    Mr. Scarborough. Thank you. But moving beyond that though, 
if in fact there are possibly nuclear devices in the State of 
California, do not Californians also have a right to know where 
those devices were planted?
    Mr. Campbell. I do understand a public security, public 
safety concern that if the matter becomes so grave as that that 
it be handled with delicacy, but it has to be handled by 
someone. It's not acceptable, not even to make an inquiry and 
then not even to give an answer to a Congress Member who asks.
    Mr. Scarborough. And Congressman Campbell, you spoke of the 
possibility of these devices being used in the event of war, 
but Congressman Weldon, didn't you talk about the possibility 
of these devices even being used outside of war by again 
quoting that 1995 document?
    Mr. Weldon. Absolutely, Mr. Scarborough.
    Mr. Scarborough. And if you could again highlight that 
because it sounds as if Russian military officials in 1995 were 
advocating nothing less than nuclear blackmail to prevent 
results on the international scale that could be negative to 
the country.
    Mr. Weldon. Mr. Scarborough, you're absolutely correct. The 
document says the importance of warfare in enemy rear areas is 
what it talks about; and it goes through, and it mentions 
compact nuclear ammunition, weapons, mines, explosives and 
other special means, and it goes down to the other paragraph, 
as I said before, special task forces as stated above can be 
used not only in war but also in peacetime during a period of 
threat. And who determines the period of threat?
    Mr. Scarborough. Right. And when you talk about these 
special op forces, again what are you talking about? Are you 
talking about them possibly placing these nuclear devices 
throughout California? Somebody said Shenandoah Valley, also.
    Mr. Weldon. Weapons of mass destruction. It could be some 
kind of biological agent. When we had--it was either Lunev or 
Gordoyevski talk about the use of chemical and biological, 
because we also had another witness come in who ran the Russian 
biological weapons program for about 10 years, and Peter, his 
name--the book, Biohazard, I can't think of his name.
    Ms. Katzin. It was Ken Alibeck.
    Mr. Weldon. Ken Alibeck. Ken Alibeck, who was again here 
under an assumed name in America, testified as the person who 
ran the Soviet biological weapons program that they used these 
weapons against their own people--he was part of it--and he 
said it was no doubt in his mind that there were intents to use 
those same materials in this country. Now, we didn't cover that 
as part of this hearing, but that's another Russian. That's not 
an American saying that. It's Dr. Ken Alibeck saying it, and 
his book basically documents that. His book is called 
``Biohazard.''
    Mr. Scarborough. You all have both studied I would guess in 
the intelligence arena and in the armed service arena, you've 
studied these areas also, haven't you, as far as the impact of 
biological warfare on American cities?
    Mr. Weldon. Mr. Scarborough, my committee's assignment is 
to chair the Resource and Development Committee for national 
security which means my subcommittee oversees about $36 billion 
a year of defense spending, a significant portion of which is 
used to develop research programs and new capability to detect 
and deal with weapons of mass destruction: biological, 
chemical, and nuclear.
    Mr. Campbell. And my responsibility is on the International 
Relations Committee, not the Intelligence Committee, but in the 
IR Committee, we have held hearings on precisely the question 
you raised.
    Mr. Scarborough. And could you simplify for somebody that's 
not looked into the biological weapons--I mean, we hear this 
anecdotal evidence. We hear of an airplane flying at 1,000 feet 
over a city or 3,000 feet over the city dropping particles that 
could kill everybody in Washington, DC, or Los Angeles, CA. Is 
there the possibility of doing that also on the ground by these 
devices, and could you briefly explain?
    Mr. Weldon. Absolutely. In fact, it's happened. There was a 
terrorist group in Japan a few years ago that used Sarin and 
wiped out the whole first responder group coming into a subway 
because they didn't know what they were facing. When Aliback 
testified again before the Congress in an open hearing, he said 
that was his job. As the head of the Soviet biological weapons 
program, his job was to develop--and they developed over 150 
strains of biological agents that could be used against 
adversaries or even used against Soviet citizens which he and 
Gordoyevski both have testified has been done in the past.
    So now we're talking about probably one of the three 
gravest threats we face in this century, that along with 
missile proliferation and cyber-terrorism and the need for us 
to establish information dominance. They are the three biggest 
threats we face because weapons of mass destruction are here. I 
mean, we know that at the World Trade Center bombing, there 
were actually two devices there. The first device destroyed the 
garage area. Thank goodness the second device didn't go off 
because it would have penetrated the HVAC system in that 
complex.
    I mean, there are those who want to cause havoc in America, 
and biological and chemical agents are a weapon of choice today 
because they're relatively easy to make and the technology has 
been worked on for years by the Russians. In fact, their 
stockpiles are overwhelming. When Alexi Yablokov testified, he 
said for arms control purposes, we estimate the amount of 
chemical weapons that Russia has to be 40,000 metric tons, and 
Yablokov said he's personally aware that they produced over 
100,000 metric tons. So where's the rest? We just don't know.
    Mr. Campbell. And I would only add to that that the 
enclosed space is the danger which obviously made the Japanese 
subway the target that it was for that particular terrorist 
group. The problem is enclosed space also describes almost 
every high rise built in the last 20 years. As you go more and 
more to sealed windows, the possibility of a biological agent 
spreading through an enclosed space, subway or high rise, makes 
it a very--an exceptionally dangerous possibility for a weapon 
of mass destruction.
    Mr. Scarborough. Congressman Campbell, you are without a 
doubt considered one of the most thoughtful Members of 
Congress, and sometimes it's maddening to some people in 
leadership who would like you to grab a torch and follow the 
crowd into battle, but you've remained remarkably independent 
in Washington and you just don't demagogue, and so with that as 
a preface, I'm going to ask you a pretty tough question that I 
would expect the answer a certain way from other Members, but I 
know, again, you're a straight shooter.
    Let me ask you, as somebody who represents the people of 
California, do you believe that Californian citizens are in 
danger of coming in contact with weapons of mass destruction 
because of the information that Mr. Weldon and you and others 
have brought to this committee?
    Mr. Campbell. I want to thank you for your kind words in 
the premise of your question. I want to say that my duty is to 
the people I represent, and the evidence that I've seen is what 
led me to ask for this hearing, to go to Chairman Burton, to 
study the material that Curt Weldon had prepared. It's no 
different than you'd do for the people of Florida or people in 
your district.
    It is, in my judgment, distinctly possible that there are 
prepositioned communications devices at a minimum. It is, in my 
judgment, highly likely that those prepositioned communications 
devices are booby-trapped because they were, the ones that we 
checked, that were checked out were, and aging booby traps, as 
we know from our knowledge of land mines, are unstable, and 
people can innocently run across them. So I'm going to be 
cautious. I'm going to be very cautious and say that what I 
have just described is, in my view, a realistic risk. The 
possibility of danger to innocent people who come across a 
booby-trapped communications cache or cache of whatever or the 
simple aging and deterioration thereof creates an important 
matter of potential risk to alleviate which the administration 
ought to at least answer a polite question.
    Mr. Scarborough. And Congressman Weldon, this will be my 
last question. I'll ask you the same question I asked 
Congressman Campbell. Are the people of Los Angeles and the 
people of the State of California in danger because of the 
information that's been brought before this committee?
    Mr. Weldon. Absolutely, and that's according to General 
Alexander Lebed who told me that. It's according to Alexi 
Yablokov who told me that. It's according to Stanislav Lunev 
who told me that. It's according to Dr. Christopher Andrew who 
told me that. It's according to Oleg Gordievsky who told me 
that, and it's according to people that I worked with in Russia 
who say that we need to understand there are those in the past 
of the Soviet history who had very unbelievable intents against 
America and its people. Now, that being said, do I think all 
Russia's our enemy? Absolutely not. And do I work at developing 
strong relations? Absolutely.
    Just in closing, I'd like to add one final thought if I 
might to both Mr. Scarborough's comment, and Mr. Chairman, your 
leadership. This does not have to be a case where it's us 
backing Russia into a corner. We give Russia--the American 
people give Russia $1 billion a year through the cooperative 
threat reduction program, through the laboratory to lab 
cooperation program, through programs involving agricultural 
assistance, through help for their nuclear waste, through 
programs involving economic development, all of which, by the 
way, I support. I'm an active supporter of all of them, but we 
give them $1 billion a year. It's a simple thing of the 
administration asking the tough questions, and I think that's 
why I said at the beginning I think this is an example of this 
administration's policy failures.
    They have never wanted to ask the tough questions. They've 
never wanted to ask about the IMF funds that the oligarchs 
stole. They never wondered that the Russians lost respect 
because we supported Yeltsin, even though that they knew that 
Yeltsin's cronies and his daughter were stealing money. It's a 
question of the arms control treaty violations, 17 of them, 
that we never called Russia on. In each case it's been the 
same. We don't want to ask the question as a Nation, and now we 
are paying a price for that.
    And in this case I agree with Mr. Campbell's assessment. He 
is always--and I agree with you, he's the most thoughtful 
Member we have in the Congress in both parties, and I think all 
of our colleagues would agree with that, that Tom is taking the 
conservative threat that we're so enamored with this idea of 
land mines. Well, what are we talking about? A land mine to the 
extent that the Swiss Government had to put out an alert for 
all their people. That's reality. This is not some made up idea 
or some movie. This is what really occurred; and therefore, 
this administration owes the American people and the Congress a 
response. And I thank you two for leading the effort to demand 
that response.
    Mr. Scarborough. I thank you, and Mr. Chairman, I thank 
you. And I certainly believe that if Californians are in 
danger, as well as people in Indiana and Florida, then the 
administration should step forward and ask the difficult 
questions. I'd like to yield back.
    Mr. Burton. Thank you very much, Congressman Scarborough. 
What I'd like to do now is take about a 5 to 10 minute break so 
Mr. Lunev can be brought into the room in a secure situation. 
We have to put up a panel around him. I'd like to also ask Mr. 
Campbell and Mr. Weldon, without objection, to join us on the 
dais because of their expertise, so they can help us ask 
questions of Mr. Lunev. We also will have Dr. William Green and 
Dr. Peter Pry come forward as well so they can be part of that 
panel. So we'll take a recess here for about 5 to 10 minutes to 
get the security in place.
    [Recess.]
    Mr. Burton. Would Dr. William Green and Dr. Peter Pry also 
come forward, please, and Dr. Pry, your seat is over to my 
left, and Dr. Green, there you are. I won't ask Mr. Lunev to 
stand up because his head is going to be above the partition. 
Would the other two please rise and raise your right hands 
please, and would you raise your right hand?
    [Witnesses sworn.]
    Mr. Burton. Thank you. You may be seated.
    Let me just say before we start the statements by the 
witnesses that some people of the media have indicated that we 
might be trying to create paranoia and a new cold war. That 
could not be further from the truth. Congressman Weldon stated 
very clearly that it is extremely important that we try to have 
a good relationship with the Russian people and the Russian 
Government.
    At the same time that that is important, it's also 
important for us to know whether or not there's any threat to 
American citizens on American soil, and that's why we're 
holding these hearings. It's incumbent upon Members of Congress 
to try to protect--in fact, we have a constitutional obligation 
to try to protect the security of American citizens, and so 
it's important that we have these hearings to try to make sure 
the American people know what's going on.
    Abraham Lincoln said--and he was a pretty good President--
let the people know the facts and the country will be saved. 
It's just as true today as it was back then. So I'm distressed 
that some members of the media are thinking we're trying to 
scare everybody to death. We're not trying to do that. We're 
trying to get the facts out so that we know that if there's 
nothing to fear, there's nothing to fear; and if there is, that 
we get it cleaned up.
    OK. I think we'll start with Colonel Lunev, and I'd like to 
say before Colonel Lunev starts to speak that this is not his 
real name. He is in the witness protection program with the--
you say the FBI and CIA together. In fact, I'll ask him that 
question in a minute and--but he is, as I said, a very high 
official, the highest GRU official that's defected to the 
United States. So we'll start with you, Mr. Lunev.

 STATEMENTS OF STANISLAV LUNEV, FORMER GRU OFFICER, AUTHOR OF 
 ``THROUGH THE EYES OF THE ENEMY;'' WILLIAM GREEN, CALIFORNIA 
 STATE UNIVERSITY--SAN BERNADINO, NAVAL RESERVES INTELLIGENCE 
OFFICER; AND PETER VINCENT PRY, FORMER EMPLOYEE OF THE CENTRAL 
          INTELLIGENCE AGENCY, AUTHOR OF ``WAR SCARE''

    Mr. Lunev. Thank you, Mr. Chairman. Good morning, ladies 
and gentlemen.
    Mr. Burton. Would you speak--pull the microphone as close 
to you as you can.
    Mr. Lunev. First of all, thank you for inviting me for so 
beautiful place like Los Angeles. Of course, weather is a 
little bit different from East Coast now which is under ice and 
snow, you know, and, of course, I would like to spend few of 
your minutes, especially to explain you my position about all 
this--actually, very dangerous stuff which unfortunately is in 
place now in time when former Soviet Union doesn't exist about 
one decade.
    For me, it was really surprise that after I wrote my book, 
actually after publishing of this book, that American people 
know so little about possible danger for the national security 
of this country. Last year when I began to work for one of the 
Internet companies, its name is newsmag.com, I had a chance to 
give a lot of radio and TV interviews to different people, and 
it's one more to underscore my point about shortage of 
knowledge of American people about national security of this 
country.
    First of all, I need to return back to history because in 
time of former Soviet Union existence, Soviet General staff 
designed special plan for the future war against America and 
American friends and allies worldwide. According to this plan, 
Soviet special operation forces commanders need to come to this 
country and other NATO countries in few days, maybe hours, 
before real war would be in place, like students, tourists, 
visitors, businessmen, by regular airlines, and before real war 
would be in place, they need to pick up weapons systems which 
are already located in this country, including technical 
nuclear devices. This is--official name is technical portable 
atomic demolition devices, containers with chemical and 
biological weapons, conventional weapons system, communication 
devices, actual money, credit cards, documentation, which are 
already storage in this country, and in few hours or minutes 
before regular nuclear missile strike will hit American soil, 
this special operation forces commanders will pick up this 
weapons system, move this weapons system to their area of 
operational use, and we will destroy economical and military 
political infrastructure of this country; first of all, targets 
which could not be destroyed by regular missile nuclear strike.
    And in fulfillment of these duties they have to destroy 
power stations, communications system of this country, 
physically eliminate American leaders who are involved in 
military chain of command. It means President, Vice President, 
Speaker of the House, chairman of the leading committees of the 
U.S. Congress, joint chief of staff members and other people, 
and especially not to provide them possibility to escape from 
the ground in time when real war would be in place. After this, 
regular missile nuclear strike and ground operation, ground 
invasion in European countries against NATO and final stage 
amphibious operation and invasion to the United States.
    Of course, you understand that this is history, but I need 
to tell you that history is history, but unfortunately, just 
now a situation is not very good, and these military plans are 
still existent in Russian General staff, and these military 
plans in time of possible war would be fulfilled by special 
operation forces commanders, by strategic forces or Russian 
Federation exclude only one last part of this plan, because in 
time after this plan was designed by Soviet General staff, 
nuclear weapons systems have developed so much that actually 
nobody will need to invade on the territory or foreign 
countries because NATO countries' territory and American 
territory could be totally destroyed by nuclear weapons system, 
and if something could not be destroyed by nuclear weapons, you 
know how many millions of looters will come to this country and 
they will finish actually all this destruction process.
    And just now what we are talking about, location of 
technical nuclear devices, containers with chemical biological 
weapons, conventional weapons system and others, these places 
we have selected extremely carefully for a long, long period of 
time, and to believe that it is possible to find this places 
just like that without using extremely, extremely large 
resources of this country, I don't think that it would be 
realistic until Russian Government, which still have keys for 
these locations will not disclose this location.
    And it was one of my major points when I wrote book that by 
publication of my book I would keep informed Russian military 
leaders that it is not secret anymore about this weapons 
existence and location outside of Russian Federation, and I 
hope that after this book publication, these devices could be 
removed from America and other territories of American friends 
and allies and returned to Russia. Unfortunately, until now, I 
do not have any real news that it's happened, and just now I 
can only to think about that these weapons systems are still 
existent on American soil and on the territory of American 
friends and allies.
    Thank you for your time, ladies and gentlemen.
    Mr. Burton. Thank you very much, Mr. Lunev.
    [The prepared statement of Mr. Lunev follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.033
    
    [GRAPHIC] [TIFF OMITTED] T6968.034
    
    [GRAPHIC] [TIFF OMITTED] T6968.035
    
    [GRAPHIC] [TIFF OMITTED] T6968.036
    
    [GRAPHIC] [TIFF OMITTED] T6968.037
    
    [GRAPHIC] [TIFF OMITTED] T6968.038
    
    Mr. Burton. I'd like to go to Dr. Pry next for his opening 
statement.
    Dr. Pry. Mr. Chairman, thank you for having me here today 
to testify before your committee on Russian threats to United 
States security in the post-cold war world.
    The administration claims its Russia policy is a 
spectacular success when in fact it is a spectacular failure. 
We've been told that capitalism and democracy are basically on 
track in Russia when they're not. We've been told by the 
administration that America's children are safe from Russian 
nuclear weapons because of the detargeting of their missiles 
when, in fact, America's children are not safe from the Russian 
nuclear threat.
    The administration's Russia policy has been more of a 
public relations campaign to persuade the American people that 
all is well rather than a hard-headed, well-attended program to 
really advance free enterprise and democracy in Russia and to 
protect United States vital national interests. Despite 
administration claims that our Russia policy is a success, many 
of us have watched and worried and warned for years that our 
Russia policy is careening toward failure.
    Now, the media and the American people have recently been 
shocked awake by a new brutal Russian leadership that has 
manipulated the electoral process to, in effect, thwart the 
free and fair elections in Russia. We have been shocked awake 
by the war in Chechnya where the Russian military is using 
missiles, flame throwers, and fuel air explosives--classified 
in their own military doctrine as weapons of mass destruction--
to subdue their own people. We have been shocked awake by 
Russian military and foreign officials who have officially 
blamed the United States for provoking the Chechen crisis as 
part of a larger conspiracy to have NATO penetrate the 
Caucasuses and gain control of the oil wealth of the Caspian 
Sea.
    We've been shocked awake by President Putin and others 
brazenly making nuclear threats against the United States, 
including Putin on December 14 attending the launch of SS-X-27 
ICBM, where he made a direct nuclear threat against the United 
States not to interfere in Russian internal affairs: And we 
have been shocked awake by President Putin's recent embrace of 
a new national security concept that describes the West as a 
threat to Russia, and relies on nuclear weapons and a nuclear 
first strike as the primary cornerstone of Russia's national 
security policy.
    None of this comes as a surprise to those of us who have 
been skeptical of the administration's claims that its Russia 
policy is basically on track and successful and who have 
independently followed and thought about what's been happening 
in Russia over the years. Indeed, everything discussed today 
about Russian military caches prepositioned on NATO territory, 
about nuclear suitcases, and other aspects of the Russian 
threat are part of a larger pattern, manifestations of a ``war 
scare'' mentally among the Russian General staff and national 
security elite described in my recently published book, ``War 
Scare: Russia and America on the Nuclear Brink.''
    War scare is a term of art used in the intelligence 
community to describe one-sided nuclear crises where Moscow 
mistakenly believed it faced the possibility of an imminent 
nuclear attack from the West, and prepared to preempt that 
threat.
    Beginning in the early 1980's, Soviet elites feared that 
they were losing the cold war and understood that the strains 
of the cold war competition were worsening the Soviet economy 
and encouraging the disintegrative internal conditions that 
eventually led to the collapse of the Soviet Union. They feared 
that the United States, sensing this growing weakness, might 
try to exploit the situation by launching a surprise nuclear 
attack. Disintegration of the Warsaw Pact and disintegration of 
the Soviet Union itself was and is still viewed in Moscow as 
not merely an internal crisis, but as a profound international 
crisis that has upset global order and the balance of power and 
may tempt the West to aggression against a weakened Russia.
    Fear and insecurity in Russia's General staff and in its 
national security elite has worsened as Russia's political 
fortunes, economy, and military capabilities have continued to 
decline over the years. Thus, while the West has tended to 
think of relations with Russia as steadily improving over the 
last decade, the Russian General staff and security services 
have viewed those relations as in a deep systemic crisis, akin 
to the protracted 20 years crisis that preceded World War II. 
They live in constant fear that the United States and NATO 
might at any moment move to finish Russia off and thereby 
remove any possible future challenge to the West's complete 
domination of the world order.
    All of this may seem hard to believe given the popular 
tendency to think of Russia exclusively in terms of the benign 
personality that was Boris Yeltsin, and given vociferous 
assurances by the administration, rarely challenged by the 
media, that Russia is now a strategic partner and no longer a 
threat to the United States. But there are some cold, hard 
facts about Russia that the American people and policymakers 
need to know in order to accurately appraise United States-
Russian relations, in order to understand that there is still a 
serious threat from that quarter.
    Russian offensive strategic forces programs, for example. 
Despite an economy where they can barely feed and house their 
own people, Russia is continuing to produce intercontinental 
ballistic missiles, cranking out SS-25s, deploying a new SS-27 
ICBM which is the most technologically advanced ICBM in the 
world, building new ballistic missile submarines, trying to 
develop new sub-launched ballistic missiles, attempting to 
modernize its strategic bomber force and building two new 
classes of strategic cruise missiles.
    Russian defensive strategic programs. They are attempting 
to modernize the Moscow ABM system which is basically a de 
facto national missile defense. The world's only existing 
national missile defense; but more important than this, they're 
putting vast resources into constructing hundreds of deep 
underground facilities, modernizing some facilities that 
already exist but building new ones, too, including some like 
Yamantau Mountain, which is a deep underground facility as 
large as Washington, DC, inside the beltway that has only one 
purpose: to survive a nuclear conflict. What its purpose is 
beyond that we actually don't know and have been attempting to 
find out, but the Russians have gone to great lengths to 
conceal the purpose of Yamantau Mountain. Kosvinsky Mountain is 
another example. We know what that is. It's a new general staff 
command post vastly harder and more capable than our own deep 
underground facility at NORAD headquarters. Its purpose is to 
manage a thermonuclear conflict, and these facilities are 
undergoing construction 24 hours a day in a country where they 
can't even provide housing for their own people.
    There is evidence that Congressman Weldon alluded to, 
actually showed you very specifically--the gyroscopes and the 
accelerometers. There's evidence of deliberate Russian 
proliferation of missiles and weapons of mass destruction 
technology to countries that are hostile to the United States. 
This apparently fits into a strategy that ``the enemy of my 
enemy is my friend.''
    There is a new anti-Western strategic partnership with 
China that is emerging between the two where China supports 
Russian interests against NATO expansion and Russia is 
supporting Chinese interests via Taiwan. Russia is giving its 
high-tech support to China to modernize its military, building 
things like SU-27 factories in China so that they can have new 
fighter aircraft that are several generations more advanced 
than what the Chinese had before.
    We have talked at length about the military caches in NATO 
already and the possibility of nuclear suitcases. Obviously a 
country that engages in such activities does not regard us as a 
strategic partner or regard the prospects for future peace as 
very likely. There's evidence that operation VRYAN continues. 
Operation VRYAN was the largest cold war intelligence program 
ever launched by Russia. It's an acronym that stands for 
``surprise nuclear missile attack.'' Beginning in the early 
1980's, the political military elite told the KGB and the GRU 
and their other intelligence services to be on the lookout for 
the possibility that the United States might imminently launch 
a surprise nuclear attack. This was because of the strains and 
stresses that I described earlier, when they realized they were 
losing the cold war and they were fearful that the West might 
actually be moving to finish them off.
    So they started looking for evidence that the United States 
was preparing to launch a nuclear surprise attack. Every 2 
weeks a VRYAN report was sent to their top political-military 
leadership on the possibility that nuclear war was right around 
the corner. This program is known, begun in the early 1980's, 
is known to have continued at least into the 1990's, and 
there's evidence that it continues still.
    In connection with this--I will mention as an aside--that 
part of it was not just intelligence collection. There was also 
a computer program that was part of the VRYAN project because 
of the belief that they would be able to, by calculating the 
correlation of forces, the balance of military and economic and 
political power and looking at particular strategic warning 
indicators, use a very sophisticated computer program to 
predict when the United States might actually launch this 
nuclear attack. This was to inform the General staff so that 
they could beat us to the punch and strike us first.
    Most disturbingly, the American people and policymakers 
need to know most of all about the nuclear war scare crises of 
the 1980's and 1990's when on several occasions the Russian 
General staff mistakenly believed that the United States might 
be preparing to attack, and Russian nuclear forces were placed 
on alert in readiness to launch a first strike just in case. 
War scares occurred during ABLE ARCHER-83. This was a NATO 
theater nuclear exercise in November 1983; in May 1992, during 
the Armenian/Azerbaijan crisis; in October 1993 during the 
parliamentary crisis in Moscow that resulted in fighting in the 
streets in Moscow between Yeltsin forces and that of the 
national Communist parliament; during January 1995 in response 
to, of all things, the launch of a meteorological rocket by 
Norway; probably during Battle-Griffin in 1996 which was a NATO 
exercise held up near Norway; possibly during Central-Asian 
Battalion-97, a Partnership for Peace exercise held in the fall 
of 1997; and most recently, during Desert Fox in December 1999.
    Some of these--the Russian nuclear alerts in response to 
ABLE ARCHER 83 and the January 1995 event were more dangerous 
than the Cuban missile crisis, and yet remain unknown or 
virtually unknown to the American public and to policymakers. I 
will describe quickly just one of these events, the January 
1995 event.
    In this case Norway and NASA were jointly developing a 
meteorological rocket to study the aurora borealis. It was a 
missile of unusual size. Norway had never launched a missile of 
this size before. It was a multistage missile, launched from 
Andoya Island out in the Norwegian Sea. They sent their 
ballistic missile launch notification to the Russian foreign 
ministry just as they were supposed to, but due to a clerical 
error by an inexperienced staffer in the foreign ministry, the 
message never got to the Russian General staff and the 
Strategic Rocket Forces that the launch was going to occur.
    As a consequence, when the General staff picked up this 
missile being launched on their radars, initially they didn't 
realize that it was coming from Andoya Island which is located 
in the Norwegian Sea. Radars can't precisely geolocate a 
missile in the initial minutes it's launched, and it could have 
been coming from nearby ballistic missile patrol areas that our 
Trident Ohio-class submarines patrol. In their doctrine, this 
is one of the things they feared most in terms of a Western 
surprise nuclear attack; that a single missile would be 
launched from this location which has the shortest flight-time 
to Moscow so that an electromagnetic pulse attack could be 
done. This is an exoatmospheric nuclear detonation that creates 
a very powerful radio wave that would fry their electronics, 
their radars, their command and control so they couldn't 
retaliate. And then, just behind that, there would be this 
massive attack.
    The General staff took so seriously this threat that it 
actually activated all three chegets. These are the nuclear 
``footballs'' that are carried by the Russian military-
political leadership. Yeltsin, the defense minister, and the 
chief of the General staff. The chegets have only one purpose 
when they're activated. You're under a surprise nuclear attack: 
push the button to retaliate. That was basically the General's 
staff implicit advice when it activated the chegets. 
Fortunately for us, Boris Yeltsin was at the helm; and he 
didn't believe it. He couldn't believe the West was going to 
attack and waited, waited long enough to see that missile was 
actually going away from Russia and not toward it. But during 
that moment, it only lasted 20 minutes, but it was the single 
most dangerous moment of the nuclear missile age. And we were 
literally one decision away from a global thermonuclear 
conflict, one decision away. Boris Yeltsin was being asked to 
push the button, and that was January 1995, not that long ago.
    If we look at this question quantitatively, are we safer 
now? Are we safer now, now that the cold war is over? Let's 
just look at some of these numbers on these nuclear alerts. 
During the cold war, we averaged about one nuclear alert by the 
Soviet Union per decade. You know, the Cuban missile crisis in 
the sixties. There was the Berlin crisis before that in the 
fifties where there was a nuclear alert. Then the Cuban missile 
crisis. Then the 1973 Middle East war. All of those had nuclear 
alerts, about one per decade. Then in the 1980's, when they saw 
themselves starting to lose the cold war competition, there 
were two. In the 1990's, counting these lists that I rattled 
off, we have had the Russians engaging in a nuclear alert on 
average about once every 2 years to 18 months. Just looking at 
the numbers, the frequency of war scare incidents has actually 
increased in the post-cold war period.
    So why haven't people heard about these events and the 
facts of Russia's ongoing preparation for war? Knowing these 
things is at least as important in evaluating the true state of 
United States-Russian relations, as knowing that Russia does 
occasionally hold something like free elections. In fairness, 
some of the information I have been describing here hasn't been 
all that available to the public and the media. My book draws 
on recently declassified National Intelligence Estimates and 
materials that are still Top Secret in Russia and that have 
been provided to us by various sources, including by several 
heroic defectors who must now live under witness protection 
programs because they are under threat of death from their 
security services that they used to work for.
    Also, and this is primarily the main reason people are 
unaware of these things: we in the West tend to be strategic 
optimists, and we don't want to hear bad news about Russia. 
Some of these things actually did make the newspapers and 
blurbs back on page 24, but they didn't fit into the overall 
paradigm we've had from the administration of improving 
relations with Russia. And so people don't know what to do with 
the data; it gets filed away; it gets forgotten.
    The administration, for its part, has played a role in this 
because it's, of course, eager to encourage our optimism about 
our relations with Russia. It doesn't want to be blamed for 
losing Russia, especially in an election year.
    Nonetheless, Russia's public statements, behavior and the 
copious unclassified writings from the Russian General staff 
and security elite have provided enough evidence of their ``war 
scare'' mentality that we in the West shouldn't now be 
surprised to discover that Russia regards the United States as 
an evil empire. Indeed, given Russia's bloody history of 
victimization at the hands of numerous invaders, including as 
recently as World War II which killed 30 million Russians, it 
is entirely logical and predictable that Moscow would now feel 
threatened. If not a tendency toward paranoia, there's also a 
certain logical inevitability that Moscow would now think it 
entirely plausible that there could be a nuclear war with the 
United States.
    Let us try to stand for a minute in the Russian General 
staff's shoes and do an experiment of the imagination. Let's 
try to see things from Moscow's point of view. Suppose history 
worked out differently and we had lost the cold war competition 
because capitalism turned out to be an inefficient way of 
organizing your economy and society and that communism was 
really the way to go and that that provided for a productive 
economy and society. Suppose as a consequence of the failures 
of capitalism our economy and the Western economy was a 
disaster so that we could no longer provide food and housing 
for our people and that this drew out internal strains in our 
society that were so severe that our country actually 
fragmented geographically, so that the southern confederate 
States broke away and we lost them, and lost states in the 
West, as happened with the Soviet Union and is now threatening 
to happen with Russia. Suppose that the economy is so bad that 
we couldn't even sustain our general purpose forces anymore. 
The Army and Navy and Marines are all neglected and rusting 
away, and the only thing left to us are our nuclear forces. 
That's the only thing left that works.
    Suppose further that our former allies and NATO basically 
want to join the winning side and the NATO alliance 
disintegrates, just as the Warsaw Pact disintegrated and former 
NATO member states, Britain, Italy, Germany, the Benelux 
countries are clamoring to join the Warsaw Pact, and the Soviet 
Union, strong and robust, decides to bring them in and that 
next year Germany and Britain and Italy are going to join the 
Warsaw Pact and so will Canada. So we will now have the Warsaw 
Pact pressing against our northern border. Suppose in 
preparation for joining the Warsaw Pact, the Soviet Union with 
its new allies decides to conduct major military exercises off 
our Atlantic and Pacific coasts, drops paratroopers opposite 
Minot Air Force Base, not a threat to us mind you, just to 
demonstrate that these guys are ready to join NATO. It's a part 
of the Partnership for Peace, and to show they are ready to 
join the Warsaw Pact.
    Suppose they--the Soviet Union--announces that it is 
establishing a new world order and is leading these new allies, 
leads multinational coalitions to set things straight on 
peacekeeping operations to Nicaragua to empower the 
Sandinistas, and to Mexico because they disapprove of Mexican 
policies, and after demonstrating high-tech conventional 
weapons that we are decades away from being able to copy they 
approach within a few hundred kilometers of the Texas border 
and then withdraw.
    Even if they were giving us a billion rubles a year to help 
our economy out and even if they called us strategic partners, 
would we feel safe? I think not. I think that we would be 
terrified and that we would be thinking--we would be very 
concerned about these exercises and peacekeeping operations, 
and we would think that--we would be very fearful of the 
possibility that the Soviet Union might want to finally finish 
the cold war, bring it to a complete conclusion by eliminating 
the United States so that we could never possibly threaten 
their attempt to completely dominate the global order and 
establish a new order. I think that our fingers would hover 
near the nuclear button every time there was a big exercise or 
big peacekeeping operation because we would be wondering, is 
this it? Are they really going to come after us this time, 
under the guise of peacekeeping operation or exercise?
    And, indeed, we can see that in our own history there was a 
time when our fingers hovered near the button. During the 
Eisenhower administration, when the Red Army stood poised to 
roll over Western Europe and we could not match the Red Army in 
terms of general purpose forces, we relied very heavily on our 
nuclear forces and planned, in fact, for a nuclear first strike 
against Russia to cope with their conventional superiority. And 
this from a society that's a democratic society and a society 
of strategic optimists. How much more worried would you be if 
you were the Russian General staff, the product of a ferocious 
totalitarian order and of a very bloody, unpeaceful history?
    Well, I have described the problem. So what should we do? 
First, we should keep our nuclear deterrent strong, nor should 
we hesitate to acquire defenses to protect ourselves from 
missiles. U.S. military strength is probably what deterred the 
General staff and prevented the war scares of the past from 
becoming actual nuclear wars. But we should redouble efforts to 
prove that we are not a threat through exchange programs with 
the Congress and Russian Duma, as Congressman Weldon is doing, 
through military officers and students. We should continue to 
provide economic aid. Maybe we should increase our economic aid 
but change the way we're doing it, not the way the 
administration has been doing it. Try to provide aid that 
directly reaches the grassroots, the Russian people themselves, 
not giving billions to the Russian elite and the former 
nomenklatura who then deposit it into Swiss bank accounts.
    But most of all, we should be aware that Russia is a threat 
and is still a nuclear super power, the only Nation on Earth 
that can end Western civilization in 30 minutes. This all-
important fact should form all of our decisions on NATO 
expansion, on peacekeeping, on whether or not we conduct 
various kinds of exercises. I do not say that we should not 
expand NATO or engage in peacekeeping, but let us stop 
pretending that these are virtually risk-free activities. A 
good case can be made for NATO expansion and peacekeeping, but 
let us do so with our eyes open to the very real risks so that 
we may intelligently weigh the risks and benefits to the 
American people in foreign and defense policy decisions that 
affect our relations with Russia.
    This concludes my substantive remarks, and gentlemen, I 
thank you for allowing me here today to speak.
    Mr. Burton. Thank you, Dr. Pry.
    [The prepared statement of Dr. Pry follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.039
    
    [GRAPHIC] [TIFF OMITTED] T6968.040
    
    [GRAPHIC] [TIFF OMITTED] T6968.041
    
    [GRAPHIC] [TIFF OMITTED] T6968.042
    
    [GRAPHIC] [TIFF OMITTED] T6968.043
    
    [GRAPHIC] [TIFF OMITTED] T6968.044
    
    [GRAPHIC] [TIFF OMITTED] T6968.045
    
    [GRAPHIC] [TIFF OMITTED] T6968.046
    
    [GRAPHIC] [TIFF OMITTED] T6968.047
    
    [GRAPHIC] [TIFF OMITTED] T6968.048
    
    [GRAPHIC] [TIFF OMITTED] T6968.049
    
    [GRAPHIC] [TIFF OMITTED] T6968.050
    
    [GRAPHIC] [TIFF OMITTED] T6968.051
    
    [GRAPHIC] [TIFF OMITTED] T6968.052
    
    [GRAPHIC] [TIFF OMITTED] T6968.053
    
    [GRAPHIC] [TIFF OMITTED] T6968.054
    
    [GRAPHIC] [TIFF OMITTED] T6968.055
    
    [GRAPHIC] [TIFF OMITTED] T6968.056
    
    [GRAPHIC] [TIFF OMITTED] T6968.057
    
    [GRAPHIC] [TIFF OMITTED] T6968.058
    
    [GRAPHIC] [TIFF OMITTED] T6968.059
    
    [GRAPHIC] [TIFF OMITTED] T6968.060
    
    Mr. Burton. Dr. Green.
    Mr. Green. Mr. Chairman, I appear before you with a certain 
disadvantage. As a college professor, I'm used to speaking in 
90 minute blocks but in the interest----
    Mr. Burton. Ninety minutes is too long.
    Mr. Green. Yes, sir, but in the interest of leaving as much 
time as possible for questions, I'll try to be terse.
    I welcome the opportunity to testify before this committee 
on the potential security threats presented by the Russian 
Federation's nuclear weapons policy. My generation was born and 
grew up under the Soviet nuclear threat. The end of the cold 
war and the emergence of a democratic system in Russia filled 
me, as it did most of the world, with jubilation, and it 
wasn't--and the big reason for this is because the threat of 
nuclear war between the super powers seemed to have faded away, 
and so I've been watching the slow erosion of Russia's young 
democracy and the rebirth of tensions between Russia and the 
United States with deep concern.
    Now, a number of recent developments have come together to 
bring this concern into the public eye. Some Americans have 
taken note that Russian words and actions are much more 
belligerent in the wake of NATO's decision last spring to 
conduct its first out of area operation to prevent Serbian 
ethnic cleansing in Kosovo. This new concern about Russia was 
reinforced last month when then President Boris Yeltsin 
publicly reminded President Clinton that Russia remains a 
nuclear power. Most recently, just 10 days ago and within 2 
weeks of taking office, Russian Acting-President Vladimir Putin 
has issued a revised national security concept that not only 
identifies the United States as a serious threat to Russia's 
security but appears to lower the nuclear threshold in dealing 
with threats from the United States.
    This national security concept is a revised version of a 
previous issue that came out in December 1997 of the national 
security concept. Both are policy statements or frameworks 
meant to integrate the most important state initiatives of the 
Russian Federation. Russia views its national security, and I 
put that in quotes, much more broadly than does the United 
States for these two 20 page, 20 plus page reports include 
threats to any aspect of life and security, and I am quoting 
there as well, in defining the term. They summarize not only 
foreign and defense issues but also matters that we would view 
as pertaining to our domestic policy, including the economic 
well-being of the Nation, crime and corruption, ecological 
hazards and even, I quote again, the adverse impact of foreign 
religious organizations and missionaries.
    One question that should be dismissed immediately is 
whether this changes the personal initiative of Vladimir Putin, 
acting Russian President and current front runner in the March 
Presidential campaign. He is in many ways an unattractive 
character given his KGB background and his austere, even his 
harsh personality. Although Putin's tactic of tying renewed war 
in Chechnya to his drive for national leadership has attracted 
much criticism abroad, at home it may very well be the factor 
that propels him into the Presidency. So, therefore, there's a 
natural tendency to see this new national security concept as 
Putin's attempt to put his mark on security policy in the brief 
run up to the next election, plain politics. Indeed, I have 
read one analytic report that labels this flat out the Putin 
doctrine.
    It's also a natural view, I'm afraid, for those who may be 
more willing to blame worsening United States-Russian relations 
on Russia's adventuristic new President rather than on more 
long-term developments for which the United States Government 
is at least partially responsible. In fact, there's been a 
lengthy buildup to this particular formulation of Russia's 
interest in strategies, and undoubtedly it will continue to be 
revised and modified.
    The national security concept was published in draft last 
October; and since, they have only made minor changes in 
wording in the final draft. At the same time, they published a 
new draft military doctrine that shares all the same 
assumptions about the West and about Russia's security 
position. For the past year, most of these issues have been 
discussed very openly by Russian military and political 
figures. Russian and international press reports indicates that 
the nuclear weapons provisions of the new national security 
concept were adopted by Russia's security council as far back 
as the end of April.
    Moreover, you can draw a steady and long-standing departure 
between the rhetoric of our post-communism, post-cold war 
American and Russian strategic partnership and the actual state 
of relations as defined in many key official Russian documents. 
This departure begins as early as 1992 when Russia came out 
with its foreign policy concept, and it goes to the 1993 
version of its military doctrine and so on to the 1997 National 
Security Council and now the document that we've had placed 
before us.
    I think that it's particularly important to compare the 
1997 and the January 2000 drafts of Russia's National Security 
Council. They are similar in structure, but their differences 
are an important indicator of recent movement in the Russian 
consensus over international and strategic policy. A difference 
that has attracted much attention, of course, are the new 
version's much looser terms for describing the conditions under 
which nuclear weapons might be used.
    In 1997, the national security concept stated, and I quote, 
the most important mission of Russian Federation's Armed Forces 
is to support nuclear deterrence. The version released earlier 
this month states the Russian Federation should possess nuclear 
forces capable of guaranteeing the infliction of the desired 
extent of damage against any aggressor state or coalition of 
states in any conditions and circumstances. It goes on to state 
that the Russian Federation will consider the use of all 
available forces and assets, including nuclear, in the event of 
need to repulse armed aggression if all other measures of 
resolving the crisis situation have been exhausted and have 
proved ineffective. No indication of deterring nuclear attacks. 
This is they've tried their conventional forces; they don't 
work; so they're using nuclear weapons.
    Mr. Chairman, I don't believe this change of wording 
signals an immediate shift in Russia to planning for preemptive 
or offensive use of nuclear weapons, but I think that we should 
draw two maybe less apocalyptic but still very disturbing 
conclusions. I think, first of all, that Russia is warning this 
country that while they may be weaker than we are, they're 
willing to play by much rougher rules. Russia is willing to 
both take and inflict greater losses should a confrontation 
turn into an armed conflict.
    And Russia has nuclear weapons. In future disputes with 
Russia, our growing awareness of this threat may very well 
dissuade us from taking forceful action. And I think we do have 
to take it seriously.
    Second, this lowering of the nuclear threshold should be 
viewed in conjunction with an even more important shift in the 
national security concept, one that a colleague of mine says 
essentially repudiates the 1997 draft. This is a dramatic shift 
in the focus and emphasis of the principal threats to Russia. 
The current version identifies the United States and NATO in 
strong terms as hostile to Russia and to the international 
order. The term ``strategic partnership'' that the 1997 version 
used to characterize Russia's relations with us and with the 
other Western nations has disappeared. Instead, the new version 
describes, ``the developed Western nations under U.S. 
leadership as attempting to circumvent the fundamental rules of 
international law to dominate the world by unilateral means 
including military force.''
    It alarms me to note that Russian military and political 
leaders now use the term ``strategic partnership'' not to 
describe us, but to describe their relationship with China; 
that Russia is selling some of its most advanced weapons 
technology to China; and that the high-level visits and 
exchanges between Russia and China appear to be on the 
increase. Our relations with both these nations individually 
are at a low point. We can ill afford to have the two 
coordinate their efforts in an anti-U.S. coalition of sorts.
    I don't blame the current administration for the worsened 
state of United States-Russian relations that I described. And 
in fact, given the unrealistic expectations that we had in the 
early 1990's, I think that seeing them deteriorate was almost 
inevitable. Both nations were almost certain to take actions 
the other would find objectionable.
    Just to begin with, Americans working in Russia, Americans 
working with Russians abroad are always expressing their 
frustration with the degree to which Russian institutions and 
Russians individually have been damaged by the Communist 
experience. Leaders, organizations and even the national mind 
set often seem tainted by the distorted views and values that 
the Communist party took pains to inculcate. Decades may pass 
before the trauma of those years fades from the Russian 
consciousness.
    By the same token the realities of the post cold war world 
are such that no United States Government, regardless of party 
or administration, would have been able to avoid triggering 
Russian suspicions and hostilities.
    I do hold the current administration responsible for what I 
regard as unrealistic and even reckless behavior in the face of 
this worsening relationship. To begin with, the United States 
Government should have been able to predict worsening ties, or 
if not, to track them as Russian antagonism began to grow. 
Instead, we have gotten a relentless stream of optimistic 
pronouncements and interpretations from administration 
spokespersons even as the heat of Russian anger and rhetoric 
aimed at us has risen.
    Closely tied to this Pollyanna-ish approach is the 
administration's failure to establish significant ties with 
Russian political and social leaders outside of a narrow circle 
of so-called reformers surrounding the Yeltsin Presidency. 
While the United States' Government praised their commitment to 
democracy and the free market system, these individuals led 
Russia through a corrupt privatization program that has 
impoverished many Russians and discredited the very concept of 
democracy. Indeed, much Russian popular bitterness at the 
United States comes from its unconditional backing of a 
leadership associated with crime and corrupt rule.
    Second, the administration has pursued a number of 
initiatives that have alienated Russians regardless of their 
political orientation. These include the expansion of NATO, 
recent support for research on ballistic missile defense, its 
policy of double containment against Iraq and Iran, the 
development of close ties with the former Soviet oil producing 
nations in the Caspian region, and most recently participation 
in NATO's air war against Yugoslavia over Kosovo.
    I want to emphasize I'm not opposing these initiatives on 
their own merits; in fact, many of them I support 
enthusiastically. But it is unrealistic to expect Russia to 
remain passive in the face of United States policies that touch 
its interests so closely. Russian opposition should have been 
taken for granted. The possibility should have been entertained 
that Russia would interpret them taken together as evidence of 
a grand strategy aimed against it.
    The new national security concept identifies one of the,

    Fundamental threats in the international sphere as attempts 
by other states to oppose a strengthening of Russia as one of 
the influential centers of the multipolar world, to hinder the 
exercise of its national interest, and to weaken its position 
in Europe, the Middle East, Transcaucasia, Central Asia and the 
Asia Pacific region.

    Finally, I want to express my dismay that current United 
States foreign and military policies seem built on the 
assumption that good relations with Russia can be taken for 
granted. If I'm correct in this interpretation, it is an 
assumption built upon sand. We cannot get U.N. Security Council 
approval for the numerous overseas interventions and 
peacekeeping missions current policy seems to regard as 
essential if Russia vetoes them. We cannot project our values 
and influence into regions they have never known, such as the 
Balkans and Central Asia, if Russia stands ready to combine 
with regional tyrannies to keep us out. And we cannot depend on 
our shrunken peacetime military and naval forces to defend our 
interests abroad if, as a generation ago, a nuclear-armed 
Russia adversary backs radical regimes when they find 
themselves in confrontation with the United States.
    Mr. Chairman, this concludes my prepared statement. I stand 
ready to respond to any questions the committee might raise, 
following adjournment of this hearing to augment the issues we 
have discussed here with additional materials.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T6968.061
    
    [GRAPHIC] [TIFF OMITTED] T6968.062
    
    [GRAPHIC] [TIFF OMITTED] T6968.063
    
    [GRAPHIC] [TIFF OMITTED] T6968.064
    
    [GRAPHIC] [TIFF OMITTED] T6968.065
    
    Mr. Burton. Thank you, Doctor. Let me say for the record 
that Dr. Pry is a member of the Armed Services Committee staff 
and that he represents the majority on that staff. And I want 
to make sure that's clear so that people know that he may, 
according to some members and some people, have a bias toward a 
different position. I don't believe that to be the case, but I 
wanted to make sure that that was stated for the record.
    Mr. Weldon. Represents both sides.
    Mr. Burton. Excuse me. Oh, he represents both sides on the 
Armed Services Committee. So forgive me, Dr. Pry. Appreciate 
that.
    Let me just start the questioning. And I don't think I'll 
question too long because I want to make sure my colleagues 
have plenty of time.
    Mr. Lunev, there's a lot of people that are going to be 
skeptical about what you have said. You were a member of the 
GRU. You were the highest ranking official of the intelligence 
community in the Soviet Union to defect. Would you elaborate 
briefly and tell us why you believe that there is a continued 
threat and why you believe that there are weapons of one type 
or another and communications equipment of one type or another 
that are buried here in the United States for possible use in 
the future and why you and others believe that they have 
created dossiers on American officials, government officials, 
in the event that there's some kind of a potential conflict 
that they can target for assassination.
    Mr. Lunev. Mr. Chairman, Dr. Pry actually make very good 
account of last development connected with Russian military and 
Russian military preparations. Including myself, I can spend 
very short, very small time I think especially to explain that, 
unfortunately, in time when America and American people spent 
huge amount of money trying to assist Russia in transition, 
transaction to free market economy and to the real democracy, 
unfortunately nothing happened in Russia. And American people, 
which spent so big money, of course, have all rights to expect 
something in return back from Russia. But it's not going point 
of view of Russian Government. Because Russian Government which 
actually totally destroyed Russian economy--and you know how 
Russian people ordinary people just now living in Russian 
federation--in this situation Russian Government using very old 
traditional or history methods and trying to explain to Russian 
people that Russian people are living so bad not because of its 
own corrupted government but because of foreign enemy.
    And Peter Pry and Dr. Green, they provided us real views of 
Russian leaders just now who are in charge of Russia who openly 
talking, speaking to Russian people that this situation with 
Russia is so bad because of America, because of America which 
already destroyed former Soviet Union, destroy Yugoslavia, 
occupied Kosovo, just now America which tried to destabilize 
the region in northern Caucasus especially, to establish 
control over this strategically important area, this America 
which like to destroy mother Russia itself.
    And in this situation, they built up Russian military 
machine not to nowhere but especially against the United States 
and American friends and allies worldwide. You know what's 
going on just now in Chechnya. It's very small area. It's 
actually--I don't know how to compare it, but maybe it's only 
fifth spot of California State. But these people, Chechnyan 
people who fighting for independence from Russia more than 200 
years just now fighting against the same Russian domination 
which was historically in this area. And Russian Government 
using Chechnyan area, area of Chechnyans living like some kind 
of test field for future war, for real war. Because they using 
huge number of Russian military personnel for combat training. 
They using new weapons system which are in stage of design 
only. First time, if I understand rightly, it was first time in 
history when Russian military few weeks ago used bombs against 
Chechnyan militants.
    And in this situation when Russian Government, which 
actually just now are considering only one strategic partner in 
the world, it's not America, but China, Russian Government, 
which continues its military buildup and development of Russian 
military machine, they do not change their mind. And they still 
consider United States like main potential military adversity.
    Mr. Burton. Let me interrupt you. I guess I didn't make my 
point quite clear. Why should Americans be concerned about the 
book and the statements that have been made that there are--
there's a strong possibility that there are sites across the 
United States and North America where military equipment and 
communications equipment, and telecommunications equipment 
might be buried and also the possibility that there might be 
some nuclear weapons buried? Why should Americans be concerned 
about that? I mean, could you and the others that we've quoted 
here today be incorrect?
    Mr. Lunev. American people need to be concerned about this 
location because this weapon system which storage in this 
country could be used by Russian special operation forces 
commanders against American people in time when Russian 
Government will order them for action. This is very big danger.
    Mr. Burton. I don't want to belabor the point, but there 
will be people who will say this is all bologna, that it's not 
factual even though several Russian leaders have said that 
these things have occurred or could occur. How would you answer 
them?
    Mr. Lunev. I would like to answer to people who is really 
concerned about national security of this country that location 
of this weapon system of foreign region in the territory of 
independent country like United States of America, it's 
violation, violation of American rights, traditions and 
sovereignty. And it's direct danger to the national security of 
this country.
    Mr. Burton. But you believe that that really occurs?
    Mr. Lunev. I believe, yes.
    Dr. Pry. Could I offer a short answer to that question, 
sir, could I have the temerity?
    Mr. Burton. Sure.
    Dr. Pry. Caches have been found in Europe. That is a fact. 
It is a fact. They have been found in Belgium and Switzerland. 
So we know the caches are real. It would be--we are a Nation of 
strategic optimists; but it's a real stretch, it seems to me, 
to think that when their doctrine calls for putting these 
caches in NATO and the United States, and then we find caches 
in NATO, that we then conclude that well, they wouldn't have 
done it in the United States.
    I think the burden of proof at this point is on those who 
want to argue that we don't have to worry about these caches to 
answer that argument. Why should they be in NATO and not the 
United States?
    Mr. Burton. Thank you very much.
    Mr. Scarborough.
    Mr. Scarborough. I wanted to ask a question about the new 
administration. You know, we've heard often that in the post-
cold war era how nuclear weapons were not controlled, how some 
had been smuggled or lost or sold to rogue states. And I want 
to ask you all obviously when we had the Yeltsin administration 
many considered the administration to be weak, corrupt, and had 
devolved power where somebody said Russian Mafia has as much 
control as any other institutions there, let me ask you about 
the new administration. Even though Putin is more nationalistic 
and more militaristic and more hostile to the West, do you all 
believe that there may be a silver lining in that he may gain 
more control over nuclear weapons? Because obviously if on one 
side we've been seeing military and political and economic 
anarchy in Russia over the past 8 or 9 years, if he is a 
stronger leader, is there a chance to believe that maybe some 
of the nuclear proliferation, at least on the black market, may 
be brought under control?
    Because right now how many weapons--85 of these suitcases 
can't even be accounted for. I know that's sort of throwing a 
curve ball, but many Americans have said for some time that one 
of the most dangerous things with the Russian Government is 
that they don't have control over nuclear weapons because 
they're so weak.
    Any taker's on that?
    Dr. Pry. I'll--go on.
    Mr. Green. There's, I think, a widespread impression that 
authoritarian or totalitarian governments are in control from 
top to bottom. But experience shows that even a government that 
can be very forceful and very brutal in keeping its population 
down can suffer from massive corruption and turmoil. It's not 
so much that it doesn't exist as that the press is unable to 
report about it. There is no freedom to talk about it. I don't 
think that the sort of opportunities for proliferation you've 
been discussing would go away if Russia went back under an 
authoritarian form of government.
    Mr. Scarborough. How would you compare it, though? The lack 
of control over nuclear weapons under the Soviet Union, the 
80--listen, I'm not here preaching the joys of communism or 
totalitarianism, I'm just asking a question. How would you 
compare, though, the control of nuclear weapons by the Soviet 
Union in the 1970's and 1980's compared to the 1990's?
    Mr. Green. Well, in the Soviet period, control of nuclear 
weapons was part of a very rigid control of all of society. 
That has broken down. Even if it were reassembled, the horse is 
already out of the door. We've had 10 to 15 years of a very 
high level of disorder in Russia. And if there has been 
significant leakage of nuclear terms or weapons out of Russia, 
merely re-establishing authoritarian controls isn't going to 
bring them back.
    Mr. Scarborough. Colonel.
    Mr. Lunev. I absolutely agree with Dr. Green that in time 
of former Soviet Union existence it was very strong control 
over nuclear materials and weapons systems, but after the USSR 
disintegration, control became weaker; but nonproliferation 
question is not connected with this protection of nuclear 
materials and weapons because all proliferation and nuclear 
technology is delivery to rogue countries made under direct 
permission from Russian government of Boris Yeltsin.
    But you ask very excellent question because what could be 
happened in future in time when administration and Russian 
Government actually was changed. And Mr. Putin just now Acting 
President and leading candidate for Russian federation next 
President, he doesn't have nothing, absolutely in his back, 
exclude only war in Chechnya. And he depends from Russian 
military much more than Yeltsin depend from his military 
machine. At the same time, Mr. Putin depends from Russian 
security services much more than Yeltsin who in his past had a 
lot of problem with KGB and he hated KGB to the last days when 
he was in power.
    So if Mr. Putin who just now promising reforms to 
reformers, pensions to pensioners, high salary to military 
personnel, security services, and if this person who open, 
actually open and just now carrying on war against his own 
people in Northern Caucasus would become next Russian 
President, it would be much more stronger person than 
internationally and domestically. He is young. He's not drunk. 
He is not out of his mind. And of course he would like maybe to 
do something for Russian people, maybe to do something for 
reforms which never occur in Russia. Maybe he will do something 
for Russian people. But internationally he would be much more 
militant and much more aggressive than his predecessor.
    And in time, of course, when he would be in charge of 
Russian military machine as a commander in chief of Russian 
federation military, of course he will use all his power 
including huge nuclear arsenal to press foreign countries, 
especially for his own gains and benefits.
    Mr. Scarborough. And I think, by the way, you've just 
helped him define his campaign slogan: I'm not drunk. I'm not 
crazy. As you said of his predecessor.
    Dr. Pry, could you just conclude on this same question. 
Because, again, it seems to me if he's going to have an iron 
fist and if he's going to do a lot of things that Americans 
might be repulsed by even if he's more militaristic and 
aggressive against the West, is there a possibility that this 
might bring some stability at home in Russia over control of 
nuclear weapons that have not been controlled over the past 8 
years?
    Dr. Pry. Yeah. You see the question presumes that the 
reason we have proliferation of missile technology and weapons 
of mass destruction technology from Russia is because of a lack 
of central control, and that this is being done by the Russian 
Mafia criminal elements and independent enterprisers. This is 
the majority view in the West. But I submit this is a case of 
our strategic optimism. If you look at many of the specific 
examples of proliferation that have occurred, they are a matter 
of deliberate government policy. They are not being done by the 
Mafia. It is not the Mafia that is building a nuclear reactor 
for Iran. It is not the Mafia that helped them develop the----
    Mr. Scarborough. If I can interrupt here. And I want you to 
get into that briefly; but, again, there's a big difference 
between purposely selling nuclear technology to Iran and other 
rogue states and not knowing where 84 nuclear devices are. I 
mean, I certainly understand he may want to sell to Syria, he 
may want to sell to Iran, he may want to sell to other rogue 
states. That's very different, though, than losing 84 nuclear 
devices, is it not?
    Dr. Pry. Sure. General Lebed could not account for the 84 
nuclear devices. That does not mean that the GRU does not know 
where they are.
    Mr. Scarborough. Right.
    Dr. Pry. That was part of Mr. Lunev's testimony that maybe 
they're here and part of the government doesn't want to tell 
another part of the government. But I guess here you could say, 
well, if he has an iron hand, is more Stalin-like, maybe he 
could get these guys to tell the General Lebeds where they are. 
And that's possible. I don't deny that there could be some--I 
think the benefits would be marginal in terms of the tradeoff, 
in terms of getting control. Because frankly when I think--when 
you get down to specifics about cases of proliferation and you 
look at all the cases of proliferation, one is hard pressed to 
actually come up with a hard example of where the Russian Mafia 
really proliferated anything. Those accelerometers and 
gyroscopes, over 100 of them, hard to believe that organized 
crime could manage that, you know. It looks like this was in 
collusion.
    Also, organized crime and the government are often one in 
the same. Defense Minister Grachev was a major boss of an 
organized crime family in Russia according to research done by 
many Russian journalists. I think the bottom line is you have a 
more authoritarian or totalitarian government that is even more 
hostile to the West than the past government was, it will 
provide even more of an incentive for these guys to want to 
strengthen our adversaries in the world by arming them with 
weapons of mass destruction and highly effective conventional 
weapons to cause as much trouble for the United States as they 
can. That is going to by far outweigh the increased police 
actions that you might get, you know, from having an 
authoritarian government. I believe it will be a net loss for 
us in security.
    Mr. Burton. Mr. Lunev, did you want to respond to that?
    Mr. Lunev. Yes. Thank you, Mr. Chairman. Only few years 
according to these devices, looks like yes. Because these 
devices are designed for a special operation forces commanders 
and actually time when design of this weapon system was in 
place, it was only GRU which handle special operation forces 
commanders which need to operate worldwide.
    And, according General Lebed's statements that some of 
these devices are not located in Russia, later he made one more 
statement because there were a lot of questions, is it possible 
that these devices could find way in the hands of international 
terrorists or other countries or countries without nuclear 
weapons. And General Lebed said openly that according checking 
process he made trying to find these devices he found that 
these nuclear weapons systems are in right hands. So GRU----
    Mr. Scarborough. In right hands.
    Mr. Lunev. In right hands, not in wrong hands.
    Mr. Burton. If the gentleman will yield. What he was saying 
then is that the government did have control of those some 
place, but he was not telling where they were.
    Mr. Lunev. Yes, sir. Yes, sir.
    Mr. Scarborough. Thanks.
    Mr. Burton. Thank you, Mr. Scarborough.
    Mr. Weldon.
    Mr. Weldon. Mr. Lunev, I have known you for some time, but 
I think for the purpose of the media here we should go through 
exactly who you are and what you were doing. You are currently 
in a witness protection program in this country administered by 
two of our intelligence agencies; is that correct? The CIA and 
the FBI.
    Mr. Lunev. It's interagency.
    Mr. Weldon. So Stanislav Lunev is not your correct name.
    Mr. Lunev. It's my original name.
    Mr. Weldon. Mr. Lunev, when you were active in the GRU, 
which is the intelligence arm of the Soviet military, you were 
stationed for a while in the Soviet Embassy in Washington; is 
that correct?
    Mr. Lunev. Yes, sir.
    Mr. Weldon. When you were stationed at the Soviet Embassy 
in Washington, was your cover that of being a TASS 
correspondent?
    Mr. Lunev. Yes, sir.
    Mr. Weldon. And so people who came across you in Washington 
really thought you were working for the Soviet media; is that 
correct?
    Mr. Lunev. Of course.
    Mr. Weldon. But what were your real assignments? What kinds 
of things were you expected to do while you were working there 
supposedly as a TASS correspondent? What kinds of things did 
the GRU expect you to accomplish?
    Mr. Lunev. Let's say that the journalist cover is very good 
for intelligence officers because the same targets to penetrate 
through secrets to open secrets and publish something about 
this. So it was very good for my intelligence job. And in time 
of my operational business in Washington, DC, area, I was 
assigned for special tasking to penetrate through American 
national security system and recruit people with access to the 
secrets of American national security.
    Mr. Weldon. Were you also asked to locate sites where 
caches of weapons could be deposited in our country?
    Mr. Lunev. Yes, sir, but it was some kind of support job I 
made for my field office additionally to my major targets. And 
in time of this support job, I spend many, many hours, many 
hundreds of hours run around big Washington, DC, area trying to 
find places for--we named them dead drops. Dead drops. Dead 
drops which could be used for storage of money, documents, 
microfilms, weapons systems, different types of weapons 
systems, and report about our dead drops proposal to Moscow.
    Mr. Weldon. How many such locations do you think that you 
uncovered while you were on station in Washington 
approximately?
    Mr. Lunev. It's very easy to say because I stay in 
Washington, DC, about 3\1/2\ years. And every 6 months I need 
to find one, two places for different size dead drops. To keep 
in mind the GRU field office in Washington, DC, it's about 40 
person. There's hundreds going every 6 months.
    Mr. Weldon. So hundreds of sites were identified.
    Mr. Lunev. Yes.
    Mr. Weldon. Were there other GRU agents in other offices 
throughout the United States that were doing the same thing?
    Mr. Lunev. Yes, sir.
    Mr. Weldon. So how many----
    Mr. Lunev. And some of them much more were involved in this 
kind of job because they didn't have so hard targets as I had.
    Mr. Weldon. So how many sites do you think were identified 
overall during the course of, say, a year nationwide in 
America?
    Mr. Lunev. Thousands.
    Mr. Weldon. Thousands.
    Mr. Lunev. Thousands. It's only in big Washington, DC, 
operational area, in New York, San Francisco, where we had 
field offices were located, but in every trip outside of this 
area, you know it was 25-mile zone.
    Mr. Weldon. Right. Right.
    Mr. Lunev. Everybody was assigned especially to find some 
places of dead drop and sent description of this location to 
Moscow after return back to Washington.
    Mr. Weldon. And what was your understanding of the kinds of 
drops that would occur there? Was it just communications and 
telemetry equipment, money and small arms, or was there the 
possibility of weapons of mass destruction?
    Mr. Lunev. Sir, from this business nobody from intelligence 
offices in the field doesn't know how this place like they 
found the dead drop would be used. And all the description is 
going to Moscow. And Moscow headquarter deciding how to use 
concrete dead drop position.
    Mr. Weldon. Did you ever have any indication of the 
possibility of a weapon of mass destruction being brought to 
the United States?
    Mr. Lunev. Sir, in time when I had my instructions before 
operational tour to Washington, DC, like the same that was 
before I fly to China, I had very clear instruction. These dead 
drop positions need to be found for all types of weapons 
including nuclear weapons.
    Mr. Weldon. Mr. Lunev, how many sites do you think there 
are today in the United States where caches of weapons and 
military material are still buried? Just an approximate.
    Mr. Lunev. I think hundreds.
    Mr. Weldon. Hundreds.
    Mr. Lunev. Hundreds, yes.
    Mr. Weldon. Are you confident that even though Mitrokhin 
didn't copy down every exact location, that in the KGB files 
those sites are in fact documented down to the exact location?
    Mr. Lunev. I think that much more real information could be 
found in the GRU headquarter, not so much KGB. Because KGB 
traditionally they were active in Europe. It's very close 
countries. But GRU as a strategic intelligence agency was much 
more active if the United States.
    Mr. Weldon. Good point. I agree with you. I think you're 
probably correct. It probably needs to be as to the GRU.
    So therefore is it your assessment as someone who was a 
senior expert and was involved in these kinds of activities 
that there are people in America who are at risk today because 
of the possibility of what happened in Switzerland happening 
throughout the United States in perhaps public park lands or in 
open space that may have been the site where these materials 
were located?
    Mr. Lunev. I hope that it's never happened, but I cannot 
exclude.
    Mr. Weldon. Do you think it's true that we have sites such 
as Switzerland where there are booby-trapped devices that could 
harm American people, do you think that in fact is a very real 
possibility in America today?
    Mr. Lunev. Yes, sir. And I need to tell a few words 
additionally. Because please keep in mind that the United 
States intelligence and counterintelligence services are best 
in the world. And the people who planned the same operation in 
Switzerland and the United States, they keep in mind difference 
in intelligence and counterintelligence services. And, of 
course, everything which was done in the United States was done 
many, many, many times much more carefully and safety for its 
participants than it was done in European countries.
    Mr. Weldon. Thank you.
    Mr. Burton. Mr. Campbell.
    Mr. Campbell. Mr. Chairman, thank you.
    Mr. Lunev, describe please for me the kind of boobytrap 
that might be connected with one of these dead drops or weapons 
caches or communications caches.
    Mr. Lunev. What does this mean, ``boobytrap''?
    Mr. Campbell. Boobytrap is a device that would explode if 
somebody who happened upon this by accident or happened upon 
this by counterintelligence without having information or key 
or a key to defuse it.
    Mr. Lunev. Yes, sir, I understand. I understand your 
question. The devices which would explode this weapons system 
if somebody from strangers will try to open it to approach, 
usually use in combat area in time of warfare, but connected 
with the same devices like portable technical nuclear briefcase 
or containers with chemical and biological weapons using 
different types of devices, so-called self-liquidation devices. 
And if somebody would like to approach this device, it will be 
self-liquidation, first of all. But I cannot exclude 
possibility that for more than 100 percent guarantee second 
level of security would be the same devices for the explosion.
    Mr. Campbell. In the example given in the book to which 
reference has been made from the Mitrokhin files, we have a 
boobytrapped device in Switzerland which was used to protect 
communications devices apparently. My question is whether this 
would be typical of the kind of protection that you would have 
placed around a communications cache, a communications dead 
drop in the United States.
    Mr. Lunev. Yes, sir, it's typical. It's typical and in the 
traditions.
    Mr. Campbell. And if you have an estimate, I would like to 
know it whether this was true for all dead drops and locations 
of this nature or some. And if only some, what was the 
distinction.
    Mr. Lunev. Thank you, sir. No. It's very big difference 
because for dead drops, for communication with agents, for 
exchange of microfilms, information, money, to provide them 
communication devices, it's--I think it's only in few cases 
they could be equipped by this special destruction devices. But 
in general, when you have agent with elementary school 
education to explain him how to switch off this explosion 
device, it's impossible. But for dead drops which could be used 
by special operation forces commanders, yes, it is necessary.
    Mr. Campbell. And those would include dead drops that you 
are aware of within the United States.
    Mr. Lunev. This is dead drops for the future war. It means 
places where weapons system could be storage, communication 
devices not for peace time, not for spy games, but for war time 
and all reserves which would be necessary to command this for 
the war time.
    Mr. Campbell. You mentioned San Francisco field office of 
the GRU. Are you aware of any locations of devices, 
communications, or weapons that would have been the 
responsibility of GRU agents working out of the San Francisco 
office?
    Mr. Lunev. Sure. I didn't have time to tell you all story 
about this. But it's not only GRU operational offices who are 
working in this country under civilian cover or in military 
uniform are involved in this business. Because they, yes, they 
are responsible for finding dead drops and the operations 
according dead drops. But please keep in mind that a lot of GRU 
offices are coming here like businessmen, like students, 
teachers, most popular computer specialists, and all other 
cover they can use. And they will do one of the major part of 
their job is to find these dead drop positions. Plus illegals 
in this country, there is a lot of illegals, not only for GRU 
but for KGB. And all of them are looking around especially to 
fulfill their tasking.
    And San Francisco is extremely important. San Francisco and 
Los Angeles it's strategically important targets for the future 
war operational use. And, of course, I am sure that they are in 
lots of places where these weapons systems are located of 
course not inside but somewhere around, especially to be 
delivered in very short time to the place of the operational 
use. So it's not only San Francisco, Los Angeles, Washington, 
DC, New York City. It's in this country there are a lot of 
targets for these weapons.
    Mr. Campbell. I ask about San Francisco only because you 
brought it up as a field office of the GRU.
    Mr. Lunev. Yes. And it's very important strategically. You 
know what Navy, Army, Air Force facilities you do have, and how 
San Francisco military area is important for the future war 
operations. It's extremely important.
    Mr. Campbell. I'm tempted to ask one additional question if 
I might, Mr. Chairman. Silicon Valley, would that have an equal 
interest to your operations?
    Mr. Lunev. Yes, sir. Because to believe that in this 
country it's very difficult to find location of nuclear 
weapons, American nuclear weapons or military units, no, it's 
very clear from space satellites. But the major secrets of the 
United States are in up-to-date technologies development, first 
of all connected with military. And Silicon Valley is a 
recognized leader in this technologies, research, development 
and production. And of course Silicon Valley is one of the 
targets for penetration by GRU; but it's not by nuclear 
briefcases, it's by recruitment of people.
    Mr. Campbell. Very well.
    Mr. Chairman, I have one final question and that is to ask 
Colonel Lunev why he defected.
    Mr. Burton. Why did you defect?
    Mr. Lunev. Mr. Chairman, Mr. Campbell, it's very long 
story. But very briefly I can tell you if you have couple 
minutes of course because I cannot do it in shorter period of 
time.
    For me, as a graduate of law school of Moscow Military 
Political Academy, I had access to secret archives of Communist 
party in time when I get this advanced military education. When 
I saw papers and documents signed by Lenin, Stalin, and other 
leaders of Soviet international communists, after I saw these 
papers, communism ideology never play any role in my life. I 
keep my membership in Communist party only like some kind of 
ordinary or regular staff I need to have, but I do it for my 
country, I believe in my country, not communist ideology.
    And all my life I believe that Soviet propaganda which tell 
me and other Soviet people that way of life in Soviet Union is 
fair and equal for all people, I believe in this way of life 
maybe because I didn't see any other. I believe in this when I 
worked in Singapore, in China and Soviet Union, until I came to 
the United States. When I came to this country, I found that 
it's different story. Because, please, turn back the Soviet 
Union 10 years ago what was it in America. Evil empire, leader 
of international imperialism, country where only small number 
of people are living very good, this is millionaires, and all 
other population living very bad and working for these rich 
people to become more and more rich.
    When I came to this country, I found that's wrong. I found 
that, yes, in this country there is limited number of very 
wealthy or rich people, limited number of very poor people who 
are living very bad. But between in this country there is huge, 
huge middle class which lives in this country, I cannot say 
very good, not bad. Not bad.
    And when I found that, that it's absolutely different 
society, different--the polar different types of living, of 
course I reduce my hostile activity against this country 
dramatically if not to zero and try to do minimum what I could 
do against this country in my operational stay here.
    And, of course, I didn't want to fight against America. And 
I didn't want to damage America. And it's happen 1991, 1992, 
after your society's integration, the society's integration, I 
found that unfortunately information I receive from my sources 
with risk of myself and people who believed me is going to 
wrong hands. And I found that some of my information is going 
through the hands of Russian, just now it's name of criminals 
or people who are conducted with organized crime activity 
against the United States.
    It was some kind of last drop in my decision to cancel my 
hostile activity against the United States. But last drop, real 
last drop, it was in my conversations with my friends and 
associates--maybe you remember the beginning of 1992, 
wintertime, and American Air Force cargo plans deliver 
humanitarian aid to Russian people. In time when America tried 
to assist my own country and my own people, in time when 
Russian Government didn't do nothing but requested new credits 
and loans from the United States, I with my friends and 
associates we discussed very actively problem what to do in 
this country. Because America, if to believe Yeltsin, it was 
not anymore enemy but became friend or partner.
    And in this situation we need to cancel our hostile 
activity against America. And if it's necessary to continue our 
spy business, but by other ways like friendly countries, you 
know what foreign intelligence services are working in this 
country, but most of them are friendly intelligence services. 
And when we requested Moscow what to do in this situation, we 
received direct order from Russian President Boris Yeltsin to 
activate our spy business against America and to make it more 
dangerous for the United States than before. It was last drop. 
After this I made my decision.
    Mr. Campbell. Thank you, Mr. Chairman.
    Mr. Burton. Let me just ask two questions then I'll yield 
to my colleagues again for a second round if they choose to ask 
questions. No. 1, do you know anything about these nuclear 
devices that we were talking about? Do you have any knowledge 
of those nuclear devices?
    Mr. Lunev. No, sir, because I was assigned to strategic 
intelligence.
    Mr. Burton. So you wouldn't know if it took more than one 
person to detonate one of those.
    Mr. Lunev. I know only one that special operation forces 
commanders, they had special groups of people, specially 
trained how to use these devices.
    Mr. Burton. Can one person set the devices off?
    Mr. Lunev. Maybe this is only one person in group who can 
handle this problem.
    Mr. Burton. So one person could detonate a device like 
that.
    Mr. Lunev. Yes.
    Mr. Burton. OK. That's what I thought. The other thing is 
in the event that it was boobytrapped if we had a nuclear 
device like that here in the United States buried, in the event 
that it was boobytrapped, do you know if the boobytrap went off 
if the nuclear device also would be exploded?
    Mr. Lunev. It's very difficult to expect that this nuclear 
device would be destroyed by this explosion.
    Mr. Burton. Would it explode?
    Mr. Lunev. Yes. If it would be exploded, it would be a lot 
of evidences that it was nuclear device. So it's much more easy 
to have special self-liquidation device.
    Mr. Burton. What I meant is let's say there's a boobytrap 
on a site where they have a nuclear device. If the boobytrap 
went off, would that also explode the nuclear device?
    Mr. Lunev. Very good question, but I think it's for more 
specialist than me in this area.
    Mr. Burton. OK.
    Mr. Lunev. But I can tell you that if somebody in his 
design would like to destroy this device, he would like to make 
it much more chemically than by regular explosions.
    Mr. Burton. Thank you.
    Mr. Weldon, do you have any more questions?
    Mr. Weldon. Colonel Lunev, several decades ago there was 
what we call a sleeper agent of the Soviet government who 
turned himself into the Royal Canadian Mounted Police who was 
living in Canada. And as a part of his turning himself in, he 
said that he was--his job was to wait for a coded signal from 
the GRU which he would then use to detonate a bomb that would 
eliminate a main oil pumping station north of Edmonton and 
destroy it.
    Now, that individual was known; and in fact I have talked 
to the people who interviewed him and I'm trying to get to him 
now. Are the use of these so-called sleeper agents, were they 
common among the GRU to have people prepositioned; and do you 
still think that that type of a person could exist today in 
both the United States and perhaps Canada?
    Mr. Lunev. It sounds very familiar for me because it's 
regular practice to use as you said sleeping agent, especially 
for using of these devices in time of war after receiving 
special authorization from radio or by other devices. So it's 
very regular practice, sounds very typical for this. And just 
now--it's just now it's very difficult to say how to use these 
people now. But we name these people illegals or illegal 
intelligence agents or officers. Illegal intelligence was not 
canceled, is in place, and would be in place until the time 
when country could be existing. So I think that this methods of 
operational use of people would be in place for unlimited time.
    Mr. Weldon. One final question, Mr. Lunev. I referred today 
to a document from the Russian military publication Military 
Thought. I believe it's called Voennaya. Is that correct?
    Mr. Lunev. Yes.
    Mr. Weldon. It says this has been published every year 
since June 1918. Are you familiar with this document?
    Mr. Lunev. No, sir.
    Mr. Weldon. The internal Russian Military Thought?
    Mr. Lunev. No, sir.
    Mr. Weldon. In the document in July 1995 I referred to the 
article that talks about the employment of special task forces. 
And I referred to the one sentence that says special task 
forces can be used not only in war but also in peacetime during 
a period of threat.
    Do you believe that there is the possibility that there are 
some in Russia today that would want to use these kinds of 
weapons and these kind of special forces in peacetime as well 
as in time of perhaps conflict if they believed that perhaps a 
war was about to begin?
    Mr. Lunev. Sir, in military plans everything is possible. 
And it could be look like that just now it's peacetime, but for 
people who are in decisionmaking process it looks like 
preliminary time for the future war. So we cannot operate by 
the same time which these people. And yes, it's possible for 
using of this weapons system during so-called peacetime for 
different purposes, but decision could be made by supreme 
commander in chief only.
    Mr. Weldon. One final if you don't mind, Mr. Chairman. 
Colonel Lunev, the $64,000 question today and has been for the 
past 3 months, the major question is why wouldn't our 
administration ask the Russians to give us the exact locations 
of these sites? Now, I've given my own speculation. What's your 
speculation as a former GRU official now living in the United 
States? We've had two agencies tell us that we haven't asked 
the question. Why in the world wouldn't our administration ask 
that question of the Russians to tell us where those sites are?
    Mr. Lunev. Sir, why are you asking me about this?
    Mr. Weldon. Because I had to give my own speculation and I 
gave that earlier today. I think it's a part of our policy of 
we didn't want to embarrass Yeltsin in 1992 and 1993 when we 
found out about the Mitrokhin files so we didn't want to ask 
the question. So now we're between a rock and a hard place 
because if we ask the question now people are going to 
criticize the administration for waiting 8 years or 7 years to 
ask it. I'm just asking you to speculate. What do you think 
would be the reason?
    Mr. Lunev. Sir, I can give you my thoughts very briefly 
because you know that in this country as I already said you 
have very good and professional intelligence and 
counterintelligence. And I am sure that these people are--I 
very highly respect these people. By the way you have some of 
them behind me now. I saw them in Washington. I am sure that 
they inform politicians about what's really going on, what 
could be happening with these devices. But why politicians 
didn't do it, it's not question for me. How to do it, I think 
it's very easy. You know how many billions of dollars America 
already sent to Russian Government and this money disappeared. 
Russian people didn't get one penny from this billions and 
billions of dollars.
    Mr. Weldon. Exactly.
    Mr. Lunev. Why not to ask before sending this money for 
this information. It's very easy to say. Russian Government 
existing on money from America. Why not to ask for favor.
    Mr. Weldon. I agree with you absolutely 1,000 percent. 
That's the question for the administration. Why haven't they 
asked.
    Mr. Burton. I think that's a good question to end this part 
of the hearing on. Before we dismiss our panel, I want to thank 
very much the Los Angeles County Metropolitan Transportation 
Authority for allowing us to use this facility. I also want to 
thank all of the MTA staff that's worked so hard and so closely 
with my staff to make sure this hearing was possible.
    I also want to thank the panel. You've been very, very 
informative to us. We really appreciate it. We appreciate your 
coming all the way to Los Angeles. And hopefully we'll be able 
to pick your brains in the future for more information as this 
process goes forward.
    And, Mr. Lunev, thank you for helping America by giving us 
this information. Thank you very much.
    Mr. Lunev. Thank you, sir.
    Mr. Burton. We're going to let you leave first. So we'll 
let you put your sack over your head.
    Mr. Lunev. May I say a few words only? Few words.
    Mr. Burton. Yeah, sure.
    Mr. Lunev. Because just now I told you that I am working 
for an information company. And I found that in my 
conversations with my readers, with listeners that just now 
America, situation is in America is not bad, not bad. Economy 
is growing. People are living not bad. And I think that just 
now maybe it's very good time to think about American national 
security a little bit more than usual. Because maybe later it 
could be too late.
    And thank you for you, Mr. Chairman. Thank you for you, 
ladies and gentlemen, for inviting us, for listening to us. And 
I am really respect what are you doing for this country.
    Mr. Burton. Thank you very much. We'll meet you outside. I 
would like to shake your hand.
    Would you escort him out.
    And the other panelists, thank you very much.
    We will go into executive session, the Members of Congress 
with the intelligence agencies. It's for the classified 
briefing. And we'll do that in about 10 minutes in the 
adjoining room.
    Thank you all very much. And thanks to the media for being 
here. We appreciate your attendance.
    [Whereupon, at 1:28 p.m., the committee was recessed.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6968.066

[GRAPHIC] [TIFF OMITTED] T6968.067

[GRAPHIC] [TIFF OMITTED] T6968.068

[GRAPHIC] [TIFF OMITTED] T6968.069

[GRAPHIC] [TIFF OMITTED] T6968.070

[GRAPHIC] [TIFF OMITTED] T6968.071

[GRAPHIC] [TIFF OMITTED] T6968.072

[GRAPHIC] [TIFF OMITTED] T6968.073

[GRAPHIC] [TIFF OMITTED] T6968.074

[GRAPHIC] [TIFF OMITTED] T6968.075

[GRAPHIC] [TIFF OMITTED] T6968.076

[GRAPHIC] [TIFF OMITTED] T6968.077

                                   <all>

</pre></body></html>
